<html>
<title> - HEARING ON: H.R. 3605, TO ESTABLISH THE SAN RAFAEL WESTERN LEGACY DISTRICT IN UTAH, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




   HEARING ON: H.R. 3605, TO ESTABLISH THE SAN RAFAEL WESTERN LEGACY 
                DISTRICT IN UTAH, AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     MARCH 2, 2000, WASHINGTON, DC

                               __________

                           Serial No. 106-70

                               __________

           Printed for the use of the Committee on Resources





 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-874 <l-ar/r-ar>          WASHINGTON : 2000
______________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                                     RUSH D. HOLT, New Jersey
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 2, 2000.......................................     1

Statements of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................    16
        Prepared statement of....................................    17
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2

Statements of witnesses:
    Curtis, Wesley R., Director, Governor's Rural Partnership 
      Office.....................................................    47
        Prepared statement of....................................    49
    Johnson, Commissioner Randy, Emery County, Utah..............    49
        Prepared statement of....................................    23
    McUsic, Molly, Counselor to the Secretary, Department of the 
      Interior, accompanied by Sally Wisely, UT State Director, 
      Bureau of Land Management..................................    18
        Prepared statement of....................................    20
    Martin, Wilson, Deputy State Historic Preservation Officer, 
      Utah Division of State History-Preservation Office.........    39
        Prepared statement of....................................    82
    Matz, Mike, Executive Director, Southern Utah Wilderness 
      Alliance...................................................    50
        Prepared statement of....................................    53
        Staff Report, Price Field Office.........................    63
    Nelson, Courtland, Director, Utah Division of Parks and 
      Recreation.................................................    41
        Prepared statement of....................................    44
    Petersen, Commissioner Kent, Chair, Emery County, Utah.......    27
        Prepared statement of....................................    29
    Meadows, William H., The Wilderness Society, comments on H.R. 
      3605.......................................................    87

Additional material supplied:
    The Wilderness Society, comments on H.R. 3605................    78
    Text of H.R. 3605............................................     4

 
   HEARING ON: H.R. 3605, TO ESTABLISH THE SAN RAFAEL WESTERN LEGACY 
                DISTRICT IN UTAH, AND FOR OTHER PURPOSES

                              ----------                              


                        THURSDAY, MARCH 2, 2000

              House of Representatives,    
                 Subcommittee on National Parks    
                                      and Public Lands,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m., in Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
[chairman of the Subcommittee] presiding.
    Members present: Representatives Hansen, Duncan, Cannon, 
Kildee, and Udall.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Good morning and welcome. We appreciate your 
coming to be with us today. You probably all realize that 
Congress passed their last vote of the week yesterday, so many 
of our members are on holiday. We appreciate those who are 
here.
    This morning we will hear testimony on Congressman Chris 
Cannon's bill, H.R. 3605, that would establish the San Rafael 
Legacy District and National Conservation Area in Eastern Utah.
    The San Rafael region is host to many unique resources 
representative of the American West. These include influences 
from Native American culture, exploration, pioneering, and 
industrial development. H.R. 3605 will protect these resources 
while also ensuring the economic viability of the surrounding 
communities.
    As many of the members are aware, Mr. Cannon has worked 
very hard to protect this area. But we have had some problems 
doing it, and he is continuing to work on it. We will return 
again this Congress with similar legislation that has been 
worked out with the administration and the local community.
    Similar to past legislation, this bill provides real 
protection for an area that deserves national recognition and 
conservation. H.R. 3605 is legislation that should serve as a 
model of how local communities can come together, work with the 
Department of Interior, and work out a plan that preserves the 
land in a fashion that conserves and protects while respecting 
traditional users and values.
    The Western Legacy District will be located in Emery County 
and will consist of approximately 2.8 million acres. The 
District, much like its heritage area, will be used to promote 
the development of historical, cultural, and recreational 
resources related to the heritage of the San Rafael region and 
the State of Utah.
    Working through the Bureau of Land Management, the 
Secretary of the Interior will appoint a 10-member Legacy 
Council who will be charged with advising the Secretary as to 
the interpretation, conservation, and planning for the many 
resources located within the Legacy District. Again, this plan 
calls for constant interaction between the local communities 
and the BLM to make sure this Legacy District is a success.
    Within the Heritage District, H.R. 3605 establishes the San 
Rafael National Conservation Area. This land, consisting of 
almost a million acres, will be established to conserve the 
many unique biological, aesthetic, and recreational resources 
for future generations.
    This includes some of the wildest lands in Utah, some of 
the greatest off-road recreation and the best bighorn sheep 
herd in the State. All of these resources are in need of a 
comprehensive management plan to balance all of these 
interests. The National Conservation Area approach establishes 
these goals.
    I want to thank Congressman Cannon for his efforts in 
sponsoring this bill. Moreover, I want to thank Commissioners 
Randy Johnson and Kent Petersen for their undaunted courage to 
keep working towards a solution. If these men were paid by the 
hour, the county would go broke. They have worked literally for 
years to craft a compromise that works on the ground and can 
survive the political games played.
    Needless to say, a great deal of time and effort have gone 
into its preparation. My thanks go to our State 
representatives, Wes Curtis and Courtland Nelson, who represent 
the Governor here today, as well as the rest of our witnesses 
for being here.
    Finally, I want to thank Molly McUsic, Secretary Babbitt, 
and Sally Wisely for their dedication and work in bringing this 
legislation forward and working with Emery County. We sincerely 
appreciate the great work so many folks have done on this very 
difficult piece of legislation.
    I would like to turn to my colleague from Utah, Mr. Cannon, 
the sponsor of this bill, for his opening statement.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning. The Subcommittee on National Parks and Public 
Lands will come to order. This morning we will hear testimony 
on Congressman Chris Cannon's bill H.R. 3605, that would 
establish the San Rafael Legacy District and National 
Conservation Area in Eastern Utah.
    The San Rafael region is host to many unique resources 
representative of the American West. These include influences 
from Native American culture, exploration, pioneering, and 
industrial development. H.R. 3605 will protect these resources 
while also ensuring the economic viability of the surrounding 
communities.
    As many of the Members are aware, Mr. Cannon and myself 
worked very hard during last Congress to protect this area but 
in the end were unable to provide the necessary protections 
because a few local extreme environmentalists would rather 
misrepresent the facts and fund raise rather than solve a 
problem.
    Well we return again this Congress with similar legislation 
that has been worked out with the Administration and the local 
community. Similar to past legislation, this bill provides real 
protections for an area that deserves national recognition and 
conservation. H.R. 3605 is legislation that should serve as a 
model of how local communities can come together, work with the 
Department of Interior and work out a plan that preserves the 
land in a fashion that conserves and protects while respecting 
traditional uses.
    The Western Legacy District will be located in Emery County 
and will consist of approximately 2.8 million acres. The 
District, much like a heritage area, will be used to promote 
the development of historical, cultural and recreational 
resources related to the heritage of the San Rafael region and 
the State of Utah.
    Working through the Bureau of Land Management, the 
Secretary of the Interior will appoint a ten member Legacy 
Council who will be charged with advising the Secretary as to 
the interpretation, conservation and planning for the many 
resources located within the Legacy District. Again, this plan 
calls for constant interaction between the local communities 
and the BLM to make this Legacy District a success.
    Within the Heritage District, H.R. 3605 establishes the San 
Rafael National Conservation Area. This land, consisting of 
almost a million acres, will be established to conserve the 
many unique biological, aesthetic and recreational resources 
for future generations. This includes some of the wildest lands 
in Utah, some of the greatest off road recreation and the best 
big horn sheep herd in the State. All of these resources are in 
need of a comprehensive management plan to balance all of these 
interests. The National Conservation Area approach accomplishes 
these goals.
    I want to thank Congressman Cannon for his efforts in 
sponsoring this bill. Moreover, I want to thank Commissioners 
Randy Johnson and Kent Peterson for their undaunted courage to 
keep working towards a solution. If these men were paid by the 
hour, the County would be broke. They have worked literally for 
years to craft a compromise that works on the ground and can 
survive the political games played around here. Needless to 
say, a great deal of time and effort have gone into its 
preparation. My thanks also goes to our State representatives, 
Wes Curtis and Courtland Nelson who represent the Governor here 
today as well as the rest of our witnesses for being here today 
to testify. Finally, I want to thank Molly McUsic, Secretary 
Babbitt, and Sally Wisely for their dedication and work in 
bringing this legislation forward and working with Emery 
County.

    [The Bill H.R. 3605 follows:]
    [GRAPHIC] [TIFF OMITTED] T4874.001
    
    [GRAPHIC] [TIFF OMITTED] T4874.002
    
    [GRAPHIC] [TIFF OMITTED] T4874.003
    
    [GRAPHIC] [TIFF OMITTED] T4874.004
    
    [GRAPHIC] [TIFF OMITTED] T4874.005
    
    [GRAPHIC] [TIFF OMITTED] T4874.006
    
    [GRAPHIC] [TIFF OMITTED] T4874.007
    
    [GRAPHIC] [TIFF OMITTED] T4874.008
    
    [GRAPHIC] [TIFF OMITTED] T4874.009
    
    [GRAPHIC] [TIFF OMITTED] T4874.010
    
    [GRAPHIC] [TIFF OMITTED] T4874.011
    
    [GRAPHIC] [TIFF OMITTED] T4874.012
    
 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I appreciate the 
Subcommittee's holding this hearing this morning. As you know, 
we have worked hard and long on this legislation to provide for 
the reasonable management of the San Rafael Swell.
    I would like to thank everyone who is here today, and also 
those who are at home, who have been involved in formulating 
this legislation. Randy Johnson, Kent Petersen, Val Payne, Ira 
Hatch, Wes Curtis, Wilson Martin, Courtland Nelson, who 
traveled from Utah. And we also have Mike Matz who is here with 
us today, and Larry Young--Larry has not traveled, but he is 
from Utah. We appreciate the sacrifice you have made to be here 
today.
    I am sure their testimony will be helpful, and I look 
forward to the discussion of the merits of this legislation 
this morning.
    I appreciate the support of the administration as expressed 
by Molly McUsic's testimony that she provided on behalf of the 
Department of the Interior. And, frankly, I am eager to send 
this bill to the President for his signature.
    But I would especially like to thank Sally Wisely, who 
worked long, long hours on this legislation, and Molly McUsic, 
and Secretary Babbitt, for their work on behalf of the BLM and 
the Department of the Interior.
    H.R. 3605 outlines a process to preserve the remarkable 
area famous for such outlaws as Butch Cassidy and the Sundance 
Kid.
    Over the last three years, people in Emery County, Utah, 
have come together with county officials, landowners, and 
Bureau of Land Management to develop and support this plan. The 
San Rafael Legacy and National Conservation Area Act would 
place 2.8 million acres into a Legacy District to be managed 
for the conservation of the region's historical and cultural 
resources.
    This bill allows management that would guarantee the 
preservation of the dramatic canyons, wildlife, and historic 
sites of the San Rafael Swell. Additionally, this bill sets 
aside almost a million acres as a National Conservation Area, 
withdrawn from future mining claims and providing increased 
protection for primitive and semi-primitive areas.
    The Secretary of Interior, in conjunction with an Advisory 
Council, would develop a management plan for the National 
Conservation Area that would allow various land uses, while 
simultaneously preserving the natural resources of the area for 
future generations.
    Many of you may remember a similar bill that I introduced 
in the last Congress. The concern with that previous bill 
related to the designation of wilderness. This time, the County 
Commissioners sat down with BLM and the people who live near 
and care about the San Rafael Swell and set up a process for 
dealing with management of the whole area.
    We, as Americans, are united in our love for the land and 
our desire to use it appropriately.
    This bill preserves a beautiful part of the State of Utah, 
while taking into account local needs and interests. It 
provides a process for managing access for people who come to 
enjoy the area. Additionally, this bill represents a 
breakthrough in land management

policy and provides a balance between preservation and 
recreation. It proves that consensus can be achieved from the 
ground up rather than from Washington down.
    Again, Mr. Chairman, thank you for your work on this issue, 
and I look forward to hearing from our witnesses.
    [The prepared statement of Mr. Cannon follows:]

 Statement of Hon. Chris Cannon, a Representative in Congress from the 
                             State of Utah

    Thank you Mr. Chairman. I appreciate the Subcommittee 
holding this hearing this morning. You know we have worked long 
and hard on this legislation to provide for the reasonable 
management of the San Rafael Swell area. I would like to thank 
everyone who is here today and those at home who have played a 
role in formulating this legislation. Randy Johnson, Kent 
Peterson, Val Payne, Ira Hatch, Wes Curtis, Wilson Martin, and 
Courtland Nelson have traveled from Utah. I recognize the 
sacrifice they have made to be here. I am sure their testimony 
will be helpful and I look forward to their discussion of the 
merits of our legislation this morning. I appreciate the 
support of the Administration as expressed in Molly McUsic's 
testimony provided by the Department of Interior. I am eager to 
send this bill to the President for his signature. I would 
especially like to thank Sally Wisely and Molly McUsic for 
their work on behalf of BLM.
    H.R. 3605 outlines a process to preserve the remarkable 
area famous for such outlaws as Butch Cassidy and the Sundance 
Kid. Over the last three years, people in Emery County, Utah 
have come together with county officials, landowners, and the 
Bureau of Land Management to develop and support this plan.
    The San Rafael Legacy and National Conservation Area Act 
would place 2.8 million acres into a Legacy District to be 
managed for the conservation of the region's historical and 
cultural resources. This bill allows management that would 
guarantee the preservation of the dramatic canyons, wildlife, 
and historic sites of the San Rafael Swell.
    Additionally, this bill sets aside almost a million acres 
as a National Conservation Area, withdrawn from future mining 
claims and providing increased protection for primitive and 
semi-primitive areas. The Secretary of Interior, in conjunction 
with an Advisory Council, would develop a management plan for 
the National Conservation Area that would allow various land 
uses, while simultaneously preserving the natural resources of 
the area for future generations.
    Many of you may remember a similar bill that I introduced 
in the last Congress. The concern with the previous bill 
related to the designation of wilderness. This time the County 
Commissioners sat down with BLM and the people who live near 
and care about the San Rafael and set up a process for dealing 
with management of the whole area.
    We, as Americans, are united in our love of the land and 
our desire to use it appropriately. This bill preserves a 
beautiful part of the state of Utah while taking into account 
local needs and interests. It provides a process for managing 
access for people who come to enjoy this area.
    Additionally, this bill represents a breakthrough in land 
management policy. It provides a balance between reservation 
and recreation. It proves that consensus can be achieved from 
the ground up, rather than Washington down.
    Mr. Chairman thank you for your work on this issue and I 
look forward to hearing from our witnesses.

    Mr. Hansen. I thank the gentleman from Utah.
    Our friend from Michigan, Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman. First of all, I 
appreciate you having this hearing today. We are anxious to 
work out some concerns we have on this bill, but I think that 
we can work those concerns out. I look forward to working with 
Mr. Cannon and yourself, Mr. Chairman, to get this bill in the 
proper shape. And I think we all have goodwill here in this, 
want to work together and move the bill forward.
    Mr. Chairman, I also have another meeting of the Forest 
Committee right down the hall, so I----
    Mr. Hansen. I understand.
    Mr. Kildee. [continuing] will be popping in and out here 
today.
    Mr. Hansen. We understand and appreciate your being with us 
for a few moments.
    The gentleman from Tennessee has no opening statement.
    We will call on our first panel, then. Molly McUsic, the 
Counselor to the Secretary, Department of the Interior. She is 
accompanied by Sally Wisely, Utah State Director, Bureau of 
Land Management. And we will also on this panel have 
Commissioner Randy Johnson from Emery County and Commissioner 
Kent Petersen from Emery County.
    If the four of you folks would like to come up. I am sure 
Nancy there can figure out where you are supposed to sit.
    We surely appreciate all of you being with us today, and we 
appreciate Molly McUsic being with us, especially knowing that 
she has just come back from maternity leave. Thank you very 
much for being with us.
    We are probably going to be a little liberal on time today. 
So, Nancy, don't get excited if they go over. And you see that 
little gizmo in front of you that says ``five minutes,'' well, 
if you need extra time--for all our witnesses--we will be more 
than happy to give you a little extra time.
    We will turn to you. Molly, pull that mike just a little 
closer to you, please.

    STATEMENT OF MOLLY McUSIC, COUNSELOR TO THE SECRETARY, 
  DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY SALLY WISELY, UT 
           STATE DIRECTOR, BUREAU OF LAND MANAGEMENT

    Ms. McUsic. Let me begin by thanking you, Chairman Hansen, 
for encouraging me last summer--and Sally and Barbara Weyman--
to go out and see the San Rafael area and to begin talking to 
the County Commissioners to see if we could find some common 
ground. I have to admit, as you probably realize, I was quite 
skeptical of the possibility of any success in that regard. And 
I am very pleased that at the end we were able to reach a bill 
that the administration could support.
    And as you and Congressman Cannon mentioned, a great deal 
of that credit has to go to the Emery County Commissioners and 
the amount of work that they did to come up with a bill that we 
could support.
    None of us got everything that we wanted, not what they got 
or what we got. And if we could write the bill in a perfect 
world, of course it would be different. But it is a good bill, 
and I am very pleased to be here today to testify in support of 
it.
    As the Chairman well knows, the San Rafael area is an 
amazingly beautiful place and well-deserving of the special 
designation and protection that this bill confers. The 
administration supports this legislation because of the 
substantial protections that arise for these important public 
lands, including the withdrawal for mineral leasing and sale 
and exchange. There were very important restrictions on off-
road vehicle use and the innovative provisions of the Legacy 
District.
    However, we would like the opportunity to work with the 
Chairman and the Committee and Congressman Cannon to address a 
few of our concerns. And I want to just highlight one today, 
which is we urge the need to modify the water language in 
202(k) prior to markup. And we can talk about that.
    As you are well aware, and as you can see from the map, 
both the National Conservation Area and the Legacy District are 
wholly within Emery County. What you may not be aware of is 
that Emery County contains the longest American highway without 
any highway services--over 110 miles. And what I like to 
imagine is some tourist whipping down there about 75 miles per 
hour and then suddenly being shocked by the amazing beauty of 
the cliffs and pinnacles and ridges that are there, and just 
thinking wow.
    And if they stop for a minute and look at the map, I think 
they would be equally shocked and surprised by the wonderful 
place names in Emery County that suggest the great Western 
history there--places like Black Dragon and Robbers Roost and 
Convulsion Canyon, to name just a few.
    Today, Emery County is poised to meet its economic future 
by living in harmony with the beauty and history of this land. 
What is striking to me about this legislation is that it 
reflects a recognition that the Federal lands can provide 
opportunities for economic growth in ways not simply on 
extraction of resources but also with protection and 
preservation of the resources.
    The legislation simultaneously provides the opportunity for 
economic growth and protection with a unique two-tiered 
approach. First, which is the inner boundary there, is a nearly 
one million acre National Conservation Area. And then the outer 
boundary is the larger Legacy District, and that is the two 
tiers.
    The first one, the National Conservation Area, has 
important protections. A number of them, it is withdrawn from 
mining, mineral leasing, sale and exchange. It also has 
important management language which requires the Secretary to 
only allow such uses as are consistent with conservation of the 
area.
    It also, importantly, provides a limitation on vehicular 
travel cross country. Travel for off-road vehicles would be 
limited to designated roads and trails. The designation of 
which roads and trails, along with other management issues like 
that, would be decided at the local level in a planning 
process. And there would be, of course, a great deal of 
complete public input and partnership with the County 
Commissioners in determining that.
    But, of course, while the planning process was going on--
and even after the plan was finished--BLM continues to have the 
authority and the obligation to prevent any resource 
degradation caused by off-road vehicle use or any other use 
that damages the resource.
    The National Conservation Area also encompasses six 
wilderness study areas and about 350,000 acres of land that 
have been found to have wilderness characteristics by the BLM 
in its 1999 inventory. This legislation has no effect on the 
wilderness status of these plans. It essentially has a hold 
harmless clause. It doesn't make any wilderness, and it doesn't 
release any of the lands from management, either as a WSA or 
the interim management of BLM.
    Section 202(k) deals with water, and we have serious 
concerns about that language. It contains sweeping language 
that is not contained in any other law dealing with public 
lands. We would appreciate the opportunity to work with the 
Committee and with Chairman Hansen and Congressman Cannon to 
resolve this before the bill goes to markup. We would also like 
to clarify some accurate acreages and map issues before the 
bill is marked up.
    The second tier of this legislation, the larger boundary, 
is the Western Legacy District. And it is a new and unique 
concept that we think will work well here. As the Chairman 
mentioned, it encompasses over 2.8 million acres of land, of 
which a little over two million is BLM-managed public land.
    The role of the Western Legacy District is to promote the 
conservation, history, and natural resources of this area, and 
this in turn will provide new economic opportunities for the 
local community. The bill also authorizes a total of $10 
million in matching grants and technical assistance.
    This money would be available for a wide range of projects, 
including planning, historic preservation, and educational 
facilities. We believe that this will allow the local community 
to more fully realize the potential economic benefits derived 
from the protection of the San Rafael Swell area.
    In sum, what is wonderful about this legislation is that it 
both provides considerable new protection for the public lands. 
At the same time, it provides the local community with 
opportunities for economic growth.
    Let me end, then, Mr. Chairman, by commending, again, the 
Emery County Commissioners and the efforts they have made. 
Randy Johnson, Kent Petersen, and Ira Hatch deserve enormous 
amounts of credit for the bill before the Subcommittee today.
    Thank you, and I would be happy to answer any questions.
    [The prepared statement of Ms. McUsic follows:]

 Statement of Molly McUsic, Counselor to the Secretary, Department of 
                              the Interior

    Thank you for the opportunity to testify regarding H.R. 
3605, the San Rafael Western Legacy District and National 
Conservation Area Act. As the Chairman well knows, the San 
Rafael Swell is an area of immense beauty that deserves the 
special designation and protections that this bill confers. The 
Administration supports this legislation because of the 
additional protections it provides for important public lands 
including the withdrawal from mineral development and sale or 
exchange, restrictions on off highway vehicle (OHV) use and 
innovative provisions for a Legacy District. However, we would 
like the opportunity to work with the Committee and Congressmen 
Cannon and Hansen to address particular concerns.
    The modification of the sweeping water language in section 
202(k) must be addressed before markup. Furthermore, we believe 
the issue of NCA boundaries may need further modification. 
Wilderness designation for an appropriate portion of this area 
is a difficult issue that remains. The Administration believes 
that wilderness protections for a significant portion of this 
area is warranted and would have preferred that it could have 
been resolved in this legislation.
    Both the NCA and the Legacy District are wholly within 
Emery County, in central Utah--an expanse of nearly 4,500 
square miles populated by only 11,000 hardy souls. Emery County 
contains the longest stretch of interstate highway in America 
(110 miles from Green River to Salina) without highway 
services. Even with a 75 MPH speed limit, the stark and 
stunning beauty of the vertical cliffs, buttes, ridges, alcoves 
and pinnacles captures the eye and the imagination of nearly 
every daytime traveler who uses this remote stretch of 
interstate to traverse this extraordinary area. The place names 
of Emery County (Black Dragon, Robbers Roost, Humbug and 
Convulsion Canyon to name but a few) speak to a storied past 
and a promising future inextricably linked to the human 
history, rugged grandeur and harsh demands of these lands.
    The beauty of the San Rafael Swell area began 40 to 60 
million years ago when a massive uplift formed a geologic 
structure called an anticline. This bulge in the earth's crust 
was later eroded to leave high mesas, deep canyons, domes, 
spectacular arches and spires. The terrain varies from sheer 
cliffs and dazzling canyons to more gently eroded badlands 
broken by shallow washes. The fins and folds of the San Rafael 
Reef jut through the southeast side of the area with dramatic 
sheer-walled cliffs, pinnacles, knobs, twisted canyons and 
valleys of stunning colors. Few canyons can compare to the 
entrenched, narrow gorges of the Black Boxes of the San Rafael 
River which twists and turns through the San Rafael Swell. The 
rugged nature of the region has long served to discourage 
exploration and settlement except by the hardiest of 
individuals.
    Human occupation of the area dates to at least 11,000 years 
ago. Petroglyphs and pictographs attest to occupation of 
indigenous people of the Fremont culture at the turn of the 
first millennium. Early European exploration of the area 
probably dates to the mid-to late 18th century Spanish 
explorers. Through the 1800s American explorers traveled 
through and around the San Rafael Swell region and were as 
awestruck by the area as we are today. Lieutenant E. G. 
Beckwith, a member of a 1853 railroad exploration expedition, 
wrote this of the region:
        Desolate as is the country over which we have just passed, and 
        around us, the view is still one of the most beautiful and 
        pleasing I have seen. As we approached the river yesterday, the 
        ridges on either side of its banks to the west appeared broken 
        into a thousand forms--columns, shafts, temples, buildings, and 
        ruined cities could be seen, or imagined, from the high points 
        along our route.
    Nineteenth Century settlement of the area can be traced to the last 
colonizing mission called by Brigham Young. Fifty families were sent to 
settle Castle Valley by Brigham Young in August 1877, less than a week 
before the West's greatest colonizer left this life. In 1880 Emery 
County was created by the Utah Territorial Legislature and the 1880 
Census counted 556 people, a number which increased to 4,657 by 1900.
    Today, Emery County, which includes both the San Rafael Swell Area 
as well as more hospitable grasslands and river bottoms, is poised to 
meet the future by living in harmony with what these lands hold. The 
legislation before us today shows reflects a recognition that the 
Federal lands offer opportunities for economic growth that do not rely 
simply on extracting from the land but also on preserving and 
protecting special areas.
    The San Rafael Western Legacy District and National Conservation 
Act provides important protections for this beautiful area, insuring 
future generations may also enjoy it. Not only will the people of Emery 
County have the opportunity to rediscover and rejoice in their own 
considerable history and contributions to the region but they will be 
able to share this history with the rest of the country--what a gift to 
all Americans.
    The bill takes a unique two-tier approach to protecting this 
important region. First, H.R. 3605 creates a nearly one million acre 
National Conservation Area. The San Rafael National Conservation Area 
created by the bill encompasses approximately 959,000 acres of BLM 
managed public lands. (There may be room to consider whether these are 
the most appropriate boundaries or if modifications may be advisable.) 
Subject to valid existing rights these lands will be withdrawn from 
mining, land laws and mineral leasing providing important protections. 
The Secretary is charged under the bill with allowing only such uses of 
the NCA as further the purposes for which the conservation area is 
established--another critical protection.
    Importantly, vehicular travel within the NCA will be limited to 
roads and trails designated for their use. The designation of roads and 
trails, along with many other aspects of management, will be finally 
determined as part of a management plan. This management plan will be 
developed with complete public input and involvement, and in 
partnership with the Emery County Commissioners.This bill does not in 
any way constrain current BLM authority to limit OHV use as necessary 
to prevent resource degradation. The BLM is committed to taking 
whatever interim actions are necessary to protect the resources of the 
area while the management plan is being developed.
    The NCA encompasses six Wilderness Study Areas (WSAs) totaling 
269,736 acres and an additional 354,866 acres of lands with wilderness 
characteristics as determined by the BLM in its Utah Wilderness 
Inventory 1999. This legislation addresses wilderness with a hold 
harmless clause. Section 4(l) of the bill makes clear that nothing in 
the bill alters the provisions of the Wilderness Act and FLPMA as they 
pertain to wilderness resources within the NCA. Appropriate wilderness 
designation is a component of providing full protection for these 
irreplaceable lands, and the Administration would like to have seen the 
wilderness issue resolved as part of this bill. However, this bill does 
protect these areas against degradation.
    We are concerned about the language in section 202(k) of the bill 
that deals with water. It contains sweeping language not contained in 
any other law dealing with public lands. We would like the opportunity 
to work with the Committee and Congressmen Cannon and Hansen to resolve 
this and clarify accurate acreages before the bill is marked up. Also, 
it is our understanding that the map, dated February 8, 2000, and 
created by the BLM for the Emery County Commissioners, is the map that 
the bill will reference after markup.
    The second tier of this legislation, a Western Legacy District, is 
a new and unique concept, and one that we believe can work well in this 
situation. This concept was developed from the Heritage Area model 
which has been so successfully used in the East, but here has been 
tailored to work in a western landscape dominated by Federal lands. The 
San Rafael Western Legacy District encompasses over 2.8 million acres 
of Federal, state and private lands. The vast majority of these lands 
are 2 million acres of BLM-managed public lands. The Western Legacy 
District encompasses the NCA and is coterminous with the boundaries of 
Emery County.
    The role of the Western Legacy District is to promote the 
conservation, history and natural resources of the area. This in turn 
will provide new economic opportunities to the local community. The San 
Rafael region has a story just waiting to be told to a public 
fascinated with the history of the old west. Emery County doesn't need 
Hollywood to create that story--the people of Emery County lived it! 
Whether it's a retelling of Sid's Leap which commemorates a daring and 
dramatic leap on horseback over a 100-foot deep canyon by one of the 
Swazey Brothers or the attempt by another brother to tame a mountain 
lion, there is a tale to be told to a public eager to come, see, and 
hear it.
    The bill establishes a Legacy Council which will provide the 
Secretary advice and recommendations for management of the entire area. 
The bill also authorizes a total of $10 million (no more than $1 
million in any one year) to be available for matching grants and 
technical assistance. These monies may be used for a wide range of 
projects including: planning, historic preservation and educational and 
interpretive facilities. We believe it will allow the local community 
to more fully realize the potential economic benefits derived from the 
protection of the San Rafael region.
    In addition to retelling the history of the settlement of the West, 
there are other opportunities for increased tourism, and economic 
growth. Within the proposed NCA boundary in northern Emery County is 
one of the world's foremost sites for dinosaur fossils--the Cleveland-
Lloyd Dinosaur Quarry. Over 12,000 bones including those of the 
Allosaurus (the largest carnivore of the Jurassic Age) and its prey 
including Stegosaurus, Diplodocus and three distinct dinosaur species 
found only in Emery County have been excavated at the site. While 
scientists have explored the quarry since the early part of the 20th 
century, it has become a growing tourist attraction in more recent 
years. The Visitor Center with its mounted Allosaurus attracts 5-7,000 
visitors annually. This site arguably rivals Dinosaur National Monument 
and the potential for increased visitation is excellent.
    Mr. Chairman, the legislation before us provides considerable new 
protections for these important lands. It provides the local community 
with opportunities for economic growth and it does so in a rational, 
realistic manner.
    Finally, Mr. Chairman let me take a moment to commend the Emery 
County Commissioners and the efforts they have made. Randy Johnson, 
Kent Peterson and Ira Hatch deserve enormous amounts of credit for the 
bill before this Subcommittee today.
    I would be happy to answer any questions.

    Mr. Hansen. Thank you so very much.
    Sally Wisely, do we turn to you?
    Ms. Wisely. Mr. Chairman, I would simply echo what Ms. 
McUsic has said today, and, again, lend my support to the bill 
and the recognition, again, of the County Commissioners and the 
work that they have put into the bill.
    Mr. Hansen. Well, thank you, and we want to tell you how 
much we appreciate your working with the County Commissioners, 
and in a reasonable, thoughtful way trying to resolve a very 
tough problem. Thank you so very much.
    Commissioner Johnson, we will turn to you, sir.

  STATEMENT OF COMMISSIONER RANDY JOHNSON, EMERY COUNTY, UTAH

    Mr. Johnson. Thank you, Mr. Hansen, members of the 
Committee. I would also like to express my appreciation to 
Molly and Sally, and all of the others who have been willing to 
spend so much time with us.
    It is with great pleasure that I testify on behalf of H.R. 
3605 today establishing the San Rafael Western Legacy District 
National Conservation Area. With your considered help, I 
believe that this bill could represent the future of public 
land management in America, not just because of how well it 
protects our public lands, but also because of the extensive 
process that has brought us to this point.
    H.R. 3605 withdraws over a million acres of the San Rafael 
Swell area for special protection, thereby creating the San 
Rafael National Conservation Area. Working in tandem with this 
protective withdrawal would be a 2.9 million acre Western 
Legacy District, which is designed to protect the wonderful 
heritage and history of the San Rafael Swell.
    These two plans are designed to work together. They 
complement each other. When we combine the special protection 
afforded by the NCA with the unique features of the Legacy 
District, our historical sites are protected, visitors to the 
San Rafael Swell are well instructed and receive an enhanced 
tourist experience, and the more pristine areas of the NCA are 
protected from unnecessary impacts.
    The Western Legacy District part of the plan addresses the 
wonderful blend of man and nature which is unique to the San 
Rafael. Here the footprints of history trace themselves across 
the rugged beauty of the Swell. Dinosaur remains scatter the 
area. There is also ample evidence of Native American cultures 
throughout the Legacy District, with many of examples of their 
wonderful history preserved in rock art.
    Further, the heritage of the early settlers of this 
unforgiving land is woven into the area and is every much as 
deserving of protection as the rocks surrounding them. Such 
treasures as Sid's Leap, Swasey's Cabin, and Temple Mountain 
are as much a part of the San Rafael Swell as sand and wind and 
deep canyon draws.
    The Legacy District works to identify and protect these and 
other wonderful sites for the enjoyment of all who come to the 
San Rafael. Few other places in the world can provide such an 
ample supply of heritage sites. This wonderful blend of man and 
his world is the very heart and soul of this plan.
    Tracking the various footprints of natural history and 
human heritage through the San Rafael Swell gives the breath of 
life to these lands and causes all who become hooked by the 
excitement and mystery of the area to take some share of 
ownership in the process of preservation and protection.
    The National Conservation Area part of the bill works to 
preserve the more pristine areas of the San Rafael Swell in 
various levels of protection as directed by the land. We have 
been criticized by some because our bill does not contain any 
wilderness, but that is the very point of what we have tried to 
accomplish here. It is a process.
    H.R. 3605 is wilderness neutral. We recognize that there 
are many complex issues to address in determining public land 
management policy. Consequently, we have proposed that we first 
withdraw more than a million acres and then, with that 
protective designation in place, we establish a four-year 
planning process in which we develop the permanent management 
plan.
    It is during that process that we will work to protect the 
more pristine lands at an appropriate level. The result is 
protection within protection.
    H.R. 3605 would establish permanent protection for over a 
million acres through congressional action, and it does it in a 
correct manner. It is built from the ground up, with all 
possible stakeholders and managers having a hand in the 
process, and drawing from those who know and understand the 
land best. It is permanent protection--protection within 
protection.
    I would just like to point out several reasons why I 
believe that H.R. 3605 is important at this time. First, I 
think it is time for us to break the seemingly eternal logjam 
that we have had in the public land debate. And I think that 
H.R. 3605 would allow us to do that in a way that preserves and 
properly protects the land.
    Second, H.R. 3605 allows for the involvement, in a 
respectful manner, of all possible stakeholders. Our public 
lands are owned by all of the people of this Nation, and they 
all have a right to their say in how these lands are managed. 
H.R. 3605 is a product of that extensive dialogue, and, 
consequently, there is a sense of ownership in the goals of 
this bill that builds a feeling of responsibility and respect 
in all of those who have played a part in the development of 
our bill and who use our public lands.
    Third, H.R. 3605 combines the protective withdrawal of the 
National Conservation Area with the Western Legacy District, 
thus coordinating the management of the land with the 
management of the people who visit the land, to the benefit of 
both. This hybrid combination will enhance our ability to 
protect the land because we will be able to better focus the 
human interaction with the land.
    H.R. 3605 has, with deliberate intent, drawn all possible 
stakeholders into the development stages. It, further, has 
worked to assure that all relevant ideas and concerns are 
addressed. This bill is not just about helping people carefully 
and respectfully coexist with the land; it is about helping 
people coexist with people, with respect for the opinions and 
ideas of each other while working for common solutions.
    H.R. 3605, Mr. Chairman, represents a dream for our public 
lands, a dream of using our best work, through vision, science, 
and cooperative effort, to protect and care for our public 
lands. Also, it contains a prescribed manner for applying that 
vision for the land in such a way that the dream can actually 
be accomplished.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

               Statement of Commissioner Randy G. Johnson

    Mr. Chairman and members of the Committee:
    It is with great pleasure that I testify on behalf of H.R. 
3605, establishing the San Rafael Western Legacy District/
National Conservation Area. With your considered help, I 
believe that this bill could represent the future of public 
land management in America--not just because of how well it 
protects our public lands, but also because of the extensive 
process that has brought us to this point.
    H.R. 3605 withdraws over 1,000,000 acres of the San Rafael 
Swell area for special protection, thereby creating the San 
Rafael National Conservation Area (NCA). Working in tandem with 
this protective withdrawal would be a 2.9 million acre Western 
Legacy District which is designed to protect the wonderful 
heritage and history of the San Rafael Swell.
    These two plans are designed to work together. They 
compliment each other. When we combine the special protection 
afforded by the NCA with the unique features of the Legacy 
District, our historical sites are protected, visitors to the 
San Rafael Swell are well instructed and receive and enhanced 
tourist experience, and the more pristine areas of the NCA are 
protected from unnecessary impacts.
    The Western Legacy District part of the plan addresses the 
wonderful blend of man and nature which is unique to the San 
Rafael. Here, the footprints of history trace themselves across 
the rugged beauty of the Swell. Dinosaur remains scatter the 
area, focusing at the Cleveland Lloyd Dinosaur Quarry, one of 
the largest sources of fossil remains in the world. There is 
also ample evidence of early Native American cultures 
throughout the Legacy District, with many examples of their 
wonderful history preserved in rock art. Further, the heritage 
of the early settlers of this harsh and unforgiving land is 
woven into the area, and is every much as deserving of 
protection as the rocks surrounding them. Such treasures as 
Sid's leap, Swasey's Cabin, and Temple Mountain are as much a 
part of the San Rafael Swell as sand and wind and deep canyon 
draws.
    The Legacy District works to identify and protect these and 
other wonderful sites for the enjoyment of all who come to the 
San Rafael. Few other places in the world can provide such an 
ample supply of heritage sites. Places such as Swasey's Leap 
Historical site, Outlaw Joe Walker Trail Corridor, Hidden 
Splendor Historical Site, the Spanish Trail Corridor, Copper 
Globe Historical Area, Rock Art Historic Corridor, and many, 
many others. Access to these destinations will be accomplished 
by means of existing and long-used roads and trails. Most 
importantly, the ever-increasing flow of tourists will find a 
greatly enhanced visit to the San Rafael Swell, while we are 
able to better manage that flow of people and better protect 
the more pristine parts of the San Rafael lands.
    This wonderful blend of man and his world is the very heart 
and soul of this plan. Tracking the various footprints of 
natural history and human heritage through the San Rafael Swell 
gives the breath of life to these lands, and causes all who 
become hooked by the excitement and mystery of the area to take 
some share of ownership in the process of preservation and 
protection. It is a user-friendly plan, and everyone benefits 
from its manageable approach.
    The National Conservation Area part of the bill works to 
preserve the more pristine areas of the San Rafael Swell in 
various levels of protection as directed by the land.
    We have been criticized by some because our bill does not 
contain any wilderness. But that is the very point of what we 
have tried to accomplish here. It is a process. H.R. 3605 is 
wilderness neutral. We recognize that there are many complex 
issues to address in determining public land management policy. 
Consequently, we have proposed that we first withdraw more than 
a million acres, and then, with that protective designation in 
place, we establish a four year planning process in which we 
develop the permanent management plan. It is during that 
process that we will work to protect the more pristine lands at 
an appropriate level. The result is protection within 
protection.
    We have also been criticized because, while there are many 
layers of protection already on the land, it is not permanent. 
They say that only wilderness can make it permanent. H.R. 3605 
establishes permanent protection for over 1,000,000 acres, 
through congressional action, and it does it in the correct 
manner. It is built from the ground up, with all possible 
stakeholders and managers having a hand in the process, and 
drawing from those who know and understand the land best. It is 
permanent protection--protection within protection--resulting 
from collaboration and cooperation rather than something being 
thrust down from above and forced into position whether it fits 
or not.
    I would like to point out several reasons why I believe 
that H.R. 3605 is important at this time:
    First, it is time to break the seemingly eternal logjam we 
have had in the public land debate. Wilderness purists would 
have us believe that until we accept huge and ever-increasing 
areas of wilderness, we will never adequately protect our 
lands. And since our bill does not accomplish that, it is 
``anti-wilderness.'' But the wilderness advocates are not 
interested in what protection our bill does offer. They are 
only concerned that it is not all wilderness, and therefore it 
does not meet their moveable acreage quotas. But, how long must 
we remain hostage to such impossible tactics? It is time to 
move forward with new ideas and renewed commitment to resolve 
issues and solve problems. H.R. 3605 will allow us to do just 
that.
    Second, H.R. 3605 allows for the involvement, in a 
respectful manner, of all possible stakeholders. Our public 
lands are owned by all the people of this nation, and they all 
have a right to their say in how those lands are managed. The 
current debate does not allow that. But H.R. 3605 is a product 
of that extensive dialogue, and consequently, there is an sense 
of ownership in the goals of this bill that builds a feeling of 
responsibility and respect in all those who have played a part 
in the development of our bill and who use our public lands. 
This sense of ownership will create a better quality of 
protection than any amount of attempting to just ``lock people 
out'' could ever do.
    Third, H.R. 3605 combines the protective withdrawal of the 
National Conservation Area with the Western Legacy District, 
thus coordinating the management of the land with the 
management of the people who visit the land, to the benefit of 
both. This hybrid combination will enhance our ability to 
protect the land because we will be able to better focus the 
human interaction with the land.
    Part of the problem with the current debate is that it 
omits the human equation. There is a growing number of people 
who love the public lands and who have every right to expect to 
be able to visit and enjoy them in their own way. Wilderness 
proposals ignore this human element, but the San Rafael 
National Western Legacy District/National Conservation Area 
bill takes into account the people part of the equation and 
works to resolve it. The result will be a better brand of 
protection.
    I would like to further illustrate this point by pointing 
out the differences between H.R. 3605 and current wilderness 
proposals:

        <bullet> Wilderness purists remain focused on one thing only--
        wilderness. They will not be part of any discussion that may 
        vary from that focus.
        <bullet> H.R. 3605 takes into account all possible points of 
        view and works to draw each perspective into the process.
        <bullet> Wilderness purists rely on contention and controversy, 
        and therefore they continually work to escalate the urgency of 
        their claims.
        <bullet> H.R. 3605 is designed to resolve long-standing issues 
        and works for permanent and genuine resolution.
        <bullet> Wilderness purists claim that all public lands are 
        beautiful, all public lands are at risk, and that only 
        wilderness will protect them from the risk.
        <bullet> H.R. 3605 recognizes all levels of need, takes into 
        account current protections, and views wilderness as one tool 
        in a complex management system.
        <bullet> Wilderness purists refuse to come to the discussion 
        table, refuse any form of dialogue, and reject any type of 
        consensus building.
        <bullet> H.R. 3605 recognizes all the values of the land and 
        all the people who use it. It works to resolve land management 
        issues with respect for all stakeholders.
        <bullet> Wilderness purists view man as a harmful intruder in 
        the natural world.
        <bullet> H.R. 3605 asserts that man and nature can and must 
        coexist in a sensitive and respectful manner.
        <bullet> Wilderness purists believe that as long as there is no 
        progress in the debate, they have won their cause. A loggerhead 
        is a victory.
        <bullet> H.R. 3605 contends that we have the science, the 
        understanding, and the inclination to address our public land 
        management issues to the benefit of the land and all who use 
        it.
        <bullet> Wilderness purists use such words as ``War,'' ``Fight 
        to the death,'' and ``No net loss'' in the public land debate.
        <bullet> H.R. 3605 uses such words as ``Solution,'' 
        ``Cooperation,'' and ``Peaceful resolution'' in development of 
        its on-going planning process.
    Lastly, the third, perhaps most compelling reason for H.R. 
3605 is because we need a solution to our public land 
management dilemma. We have been at loggerheads for far too 
long. I believe that H.R. 3605 has the potential to move around 
the blockade and create a positive future for public land 
management in America.
    Unfortunately, in a nation where diversity is the central 
thread in our national fabric, we have created a situation in 
the public lands debate where gross generalities dictate the 
parameters of the discussion and diverse opinions are no longer 
welcome.
    We have always had widely diverse points of view on all the 
different issues of running this nation. And, we have always 
been able to draw those viewpoints to the table to create 
solutions that are a blend of the best ideas and are the best 
for all involved. It is important to have a process where these 
viewpoints can come together to establish common ground and to 
seek common solutions.
    Unfortunately, we do not have that ability in the current 
wilderness debate. Consensus building and dialogue are 
considered to be hostile to the vision of ``pure'' wilderness.
    It is deeply concerning to me that, in this nation, any 
group or individual would be able to say, ``Our idea is so 
sacred and so perfect that no other perspectives will be 
entertained.'' What is even more alarming is that such a group 
could gather enough power as to be able to essentially hold 
hostage any democratic process and thwart any true progress 
toward resolution of the issues in question.
    Quite frankly, the wilderness issue is just such a scene. 
The wilderness vision, as defined by current advocates, cannot 
do all things that the land needs, and creates enemies of 
people who should be cooperative allies.
    In deep contrast, H.R. 3605 has, with deliberate intent, 
drawn all possible stakeholders into the development stages. It 
further has worked to assure that all relevant ideas and 
concerns are addressed. This bill is not just about helping 
people carefully and respectfully coexist with the land, it is 
about helping people coexist with people--with respect for the 
opinions and ideas of each other while working for common 
solutions.
    We have become much too intolerant of each other, unwilling 
to bend, unwilling to consider the needs of the other. Perhaps 
it is because we have become so consumed with the issue itself 
that we have lost sight entirely of who we are.
    A great man once said, ``Tolerance may be a virtue, but it 
is not the commanding one. There is a difference between what 
one is and what one does. What one is may deserve unlimited 
tolerance; what one does only a measured amount. A virtue when 
pressed to the extreme may turn into a vice. Unreasonable 
devotion to an ideal, without considering the practical 
application of it, ruins the ideal itself''.
    No dream has real value unless there is a practical 
application of its vision.
    The wilderness dream has no practical application. It is 
laden with difficulty. Wherever it is proposed it creates far 
more problems than it could ever solve.
    H.R. 3605, on the other hand, represents a dream for our 
public lands--a dream of using our best work, through vison, 
science, and cooperative effort to protect and care for our 
public lands. But also, it contains a prescribed manner for 
applying that vison to the land in such a way that the dream 
can actually be accomplished.
    H.R. 3605 is Vision and Reality as cooperative partners.
    We believe that we must re-evaluate our public lands 
management philosophy. We must look at the conflict we have 
created, and ask ourselves where we are going and who benefits 
from the continual contention.
    I close my testimony with the Words of Thomas Jefferson, 
from the walls of the Jefferson Memorial:
        ``I am not an advocate for the frequent changes in law and 
        constitutions, but laws and institutions must go hand in hand 
        with the progress of the human mind. As that becomes more 
        developed, more enlightened, as new discoveries are made, new 
        truths discovered and manners and opinions change, with the 
        change of circumstances, institutions must advance also to keep 
        pace with the times. . .''
    It is time to move beyond the loggerhead. It is time to 
keep pace with the times. It is time to do the right thing.
    Thank you.

    Mr. Hansen. Thank you, Commissioner Johnson.
    Commissioner Petersen?

 STATEMENT OF COMMISSIONER KENT PETERSEN, CHAIR, EMERY COUNTY, 
                              UTAH

    Mr. Petersen. Chairman Hansen, and members of the 
Committee, my name is Kent Petersen, and I am Chairman of the 
Emery County Commission. I am just happy to be here.
    The San Rafael Western Legacy District includes all of 
Emery County--2.8 million acres--and it will be established 
really to take care of the historical, cultural, natural, and 
scenic resources of the San Rafael region and will help the 
local communities to continue to exist. Perhaps most 
importantly, it will collect the history and stories of the San 
Rafael and tell these stories to the people who come to visit.
    It will also help us to develop a control basis for a 
tourism-type economy that will benefit the local people but 
will not overrun us. The San Rafael National Conservation Area 
will provide enhanced management and protection for about 1.1 
million acres on the San Rafael Swell. It will manage the land 
and the people who come to visit. Combining the Legacy District 
with the NCA will provide a plan for managing and protecting 
the land and managing the people who come to visit.
    Geologically, as it has been explained a little bit, the 
San Rafael Swell is an uplifted dome that has eroded over 
millions of years to leave amazing canyons, buttes, pinnacles, 
and even open grassland. And the San Rafael Swell, it must be 
pointed out, is in the middle of the conservation area. The 
conservation area surrounds it and contains all of it.
    It is a land of scenic beauty, but it is much more than 
that. It has a unique history and heritage. Many of the 
dinosaur skeletons on display in museums throughout the world 
came from the Cleveland Lloyd Quarry on the edge of the Swell. 
Rock art and other remnants of the early Native Americans 
abounds throughout the Swell.
    Butch Cassidy and the Robbers Roost gang frequented the 
Swell. Cowboys have managed their livestock on the Swell from 
the early 1870s until today. Prospectors and miners searched 
for and mined valuable uranium on the Swell from the early 
1900s until the late 1960s.
    If you protect the San Rafael as all wilderness, as many 
here today may suggest that we should do, you will have one 
more area of fantastic rocks, but that isn't unusual in Utah. 
If you don't hear the stories, you miss the best part of the 
Swell.
    This proposal will not only preserve the land, but it will 
preserve and pass on the story. If you go and visit the Lower 
Black Box, you will see a magnificent gorge about 20 feet wide 
and 300 feet deep, with the San Rafael River in the bottom. If 
you know the stories, you can imagine Sid Swasey jumping his 
horse across the canyon to win a bet with his brother Charlie.
    Since the early 1900s, the people of Emery County have 
worked with the government to protect the land. In the early 
1900s, they petitioned for the existence of the Manti National 
Forest. Again, in the 1930s, we worked to help to develop the 
Taylor Grazing Act and protect the land that is now the San 
Rafael.
    Following in this tradition, Emery County, in 1992, became 
a pilot county in an effort to resolve the Utah wilderness 
issue, in a project developed by Project 2000, A Coalition for 
Utah's Future, which is a broad-based public interest group. We 
met with a widely diverse group of stakeholders, including 
environmentalists, oil and gas interests, everybody. And we 
reached consensus on many issues, but we didn't reach final 
solution because of outside pressures.
    But this led to the development of the Emery County Public 
Lands Council, which meets regularly with all of the citizens 
and the public agents. They were responsible, with the 
Department of the Interior, for the development of this bill.
    We found that we all wanted the land protected. We also 
found that wilderness isn't the only method. In fact, sometimes 
it isn't the best method.
    We studied various protection methods and determined that 
the National Conservation Area, with various protection schemes 
inside the NCA, would be the best way for managing the Swell. 
And that is what is proposed in this bill.
    You will probably recall we bought H.R. 3605 to this 
Committee about two years ago. It was received friendly in some 
places, but then was shot down in the Omnibus bill at the end 
of the session. After that, we thought we ought to get back 
together and see what we could do to make this thing work. And 
that is when we talked to the Department of the Interior.
    Molly came out to see us, Molly and Sally. We drove around 
the San Rafael, and we even arranged for a small band of 
bighorn sheep to be sitting right underneath the ledge when we 
arrived there for them to see. I think that probably helped 
Molly in selling her on the concept.
    And we invite all of the members of the Committee, even the 
ones who aren't here--and members of the environmental 
community--to come out and see us. We will show you around the 
San Rafael. We will talk to you, tell you some of the stories, 
tell you about our views, and we will serve you some good food 
while we are there.
    We think this is a good bill, and we think that it may be 
able to provide a blueprint for resolving public lands issues 
in the West. In many ways, it is similar to the establishment 
of a national monument, which seems to have been popular with 
this administration and the environmental community, except 
that it was started from the ground up.
    Details for the management of the lands in the conservation 
area will be developed over a four-year planning process, just 
as was done with the Escalante Grand Staircase National 
Monument.
    And the first area to be considered in this management plan 
is the development of an access management plan, which will 
control the use of ORVs in the Swell. When this plan is 
developed, it will be enforced in probably the only way that 
something like this can be adequately enforced. It will not 
just be the BLM, but the Emery County Sheriff's Department will 
be involved. We think that is a way to accurately take care of 
it.
    Thanks to you for giving me the opportunity testify, and 
thanks, Chairman Hansen, for holding this hearing.
    [The prepared statement of Mr. Petersen follows:]

                     Statement of Kent R. Petersen

    Chairman Hansen and members of the Committee, my name is 
Kent Petersen. I am chairman of the Emery County Commission. I 
was elected to the Commission in 1992. I am pleased to be here 
to talk to you about H.R. 3605, The San Rafael Western Legacy 
District and National Conservation Area.
    The San Rafael Western Legacy District includes all 2.8 
million acres of land in Emery County. It will be established 
to preserve, conserve, and interpret the historical, cultural, 
natural, and scenic resources of the San Rafael region of the 
state of Utah, as well as the economic viability of rural 
communities in the region. The San Rafael National Conservation 
Area will provide enhanced management and protection of 1.1 
million acres located on the San Rafael Swell in the heart of 
the Legacy District.
    Only 8 percent of the land in Emery County is in private 
ownership, 82 percent is in Federal ownership, and 10 percent 
belongs to the state of Utah. The citizens of Emery County have 
a long history of caring for the land whether it was private, 
Federal, or state. In the late 1890's and early 1900's you 
could tell the location, from the valley floor, of the sheep 
and cattle herds 15 miles away on the mountains, by the clouds 
of dust they kicked up from the severely over grazed land. 
Large herds of cattle from outside the area, of cattle from 
outside the area, even from outside of the, state were grazing 
uncontrolledly on the public lands. Local citizens petitioned 
the government for the establishment of the Manti National 
Forest. Through cooperative efforts of the local ranchers and 
the Forest Service the lands have recovered and are once again 
very productive.
    In the 1930's we cooperated with the Federal Government to 
establish Taylor Grazing Act, on the lands in the San Rafael 
Swell. Again grazing was limited to holders of grazing 
allotments. Through conservation efforts of local users and the 
BLM, the condition of the land is again improving.
    The San Rafael Swell which is within the National 
Conservation Area is a land of scenic beauty, but it is much 
more than this. It has a unique history and heritage. Many of 
the dinosaur skeletons on display throughout the world have 
come from the Cleveland Lloyd Quarry operated by the BLM on the 
northern edge of the Swell. Rock art, and other remnants of the 
early Native Americans, abounds throughout the Swell. Butch 
Cassidy and the Robbers Roost gang frequented the Swell and 
used it as a getaway route after more than one robbery. Cowboys 
have managed their livestock on the swell from the early 1870's 
until today. They also named most of the landmarks and places 
of interest. Prospectors and miners searched for, and mined 
valuable uranium on the Swell during the 1950's and 60's. These 
are only a part of the history and legacy we will be protecting 
with the San Rafael Western Legacy District and National 
Conservation Area.
    When I was elected to the County Commission in 1992 the 
wilderness debate had been going on for more than 10 years with 
no solution in sight. We in Emery County decided we should work 
for our own solutions. We became the pilot county in an effort 
to resolve the Utah wilderness issue developed by Project 2000, 
A Coalition for Utah's Future. They are a broad based public 
interest organization. We met with a widely diverse group of 
stakeholders to see if we could come to a consensus resolution 
of the wilderness issue in Emery County.
    The stakeholders included members of state and national 
environmental groups, oil, gas, mining and utility interests, 
OHV users, ranchers, local government, state and Federal land 
management agencies, and local citizens. We met for about two 
years. We were able to reach consensus on many issues but were 
unable to come to a final resolution because of outside 
political pressures.
    These discussions led to the formation of the Emery County 
Public Lands Council. It is a broadbased group of local 
citizens that meet on a regular basis to discuss and resolve 
public land issues. We have signed Memorandums of Understanding 
(MOU's) with the BLM, Forest Service, and State Agencies. We 
decided if we were going to have a say in our destiny we would 
have to become proactive and seek workable solutions. These 
discussions also led to the demise of the Utah Wilderness 
Association, the main environmental group working with us. They 
were blackballed by the other Utah environmental organizations 
for working with us.
    While meeting with Project 2000, The Coalition for Utah's 
Future we found that our goals for the land were not all that 
different from most members of the environmental community. We 
all wanted the San Rafael to remain forever as it is today. The 
differences were in how we were to accomplish this goal.
    At a public meeting in Castle Dale, Montell Seely, a local 
sheep rancher and historian, and George Nickas, a member of the 
Utah Wilderness Association, described very similar visions for 
Sid's Mountain in the heart of the San Rafael. They differed 
only in the methods for accomplishing their vision. George, the 
environmentalist thought it should be made a part of a large 
wilderness area. Montell said that it should always remain wild 
and that its location would ensure that it would. H.R. 3605 
will satisfy both of their visions.
    We determined that we all wanted the land protected. We 
also found that wilderness was only one method of land 
protection and is often not the best method. It is, in fact, a 
non management tool. We studied various protection methods and 
determined that a National Conservation Area (NCA) with various 
protection schemes inside the boundary would be the most 
effective method from the ground up. Details for management of 
lands within the Conservation Area will be developed during the 
four year planning process.
    This is a bill started at the local level with strong 
consideration of national interests. It will protect some very 
important lands. It will protect and manage the wildlife who 
live on these lands. It will manage the people who visit and 
use these lands. And it will protect the heritage and the 
history of those who have called these lands home.
    I am sure that after careful study you will agree that H.R. 
3605 is the ideal management tool for the San Rafael Swell and 
for all of Emery County, Utah. Maybe it will be the model for a 
new way to resolve public land disputes in the west.
    Thanks to you for giving me the opportunity to testify, and 
thanks to Chairman Hansen for holding this hearing.

    Mr. Hansen. Thank you, Commissioner Petersen. We appreciate 
your testimony.
    Commissioner Petersen is quite renowned for his cowboy 
poetry, too, and the last time he was here he----
    Mr. Petersen. Well, thank you.
    Mr. Hansen. [continuing] delighted the Committee with a few 
extra things concerning the San Rafael Swell.
    Questions for the panel? We will start with you, 
Congressman Cannon.
    Mr. Cannon. Thank you, Mr. Chairman.
    First of all, Ms. McUsic, let me congratulate you on the 
new addition to your family. It is nice to see you.
    Could you comment, Ms. McUsic, on the role of the BLM after 
the previous bill was determined to be unsatisfactory. What 
happened after that? I mean, you guys were wonderful about 
taking some initiative there.
    Ms. McUsic. Sure. Let me actually defer to Sally Wisely of 
the BLM to explain how the BLM helped.
    Mr. Cannon. Great.
    Ms. Wisely. Shortly after I came to Utah--actually, on my 
very first round after I was appointed Director, in the visit 
with all of you, you asked me to take a look, thought there 
were some good ideas in the previous bill and asked me to 
revisit that.
    And, again, Ms. McUsic and myself and Barbara Weyman, at 
the Commissioner's invitation, went out to the Swell to spend a 
couple of days with them, taking a look on the ground at the 
issues and what opportunities there might be.
    In the interim, then, our office has been talking a lot 
with the County Commissioners, as they really took the lead in 
terms of making suggestions and really taking a hard look at 
what we thought worked and what we thought maybe there were 
some problems with in the last bill, to craft something, then, 
that everyone felt good about.
    Mr. Cannon. Ms. Wisely, thank you in particular for all of 
the time that you did spend on this. I know that it was a lot 
of time, and I think the bill reflects your efforts there.
    For either you, Ms. Wisely, or Ms. McUsic, how do you 
anticipate dealing with OHVs? Has the county worked with BLM so 
far in setting up management for off-highway vehicle use?
    Ms. Wisely. If I could take a shot at that. First of all, 
let me just mention that we are aware that we have some OHV 
issues in that general area. There is no question that we have 
some issues there.
    What we have been doing within BLM is taking a hard look at 
trying to figure out what those issues are, how to get our arms 
around that, how best, then, to address that. We have been 
having some discussions with the Commissioners, and what I 
would expect is that very shortly here we will then take some 
actions to kind of lay out a strategy in terms of how to 
approach that.
    Mr. Cannon. Thank you. I just wanted to say that I went on 
a four-wheeler trip in the area last summer, and it was really 
truly a remarkable experience. It is beautiful. It is 
interesting. I was deeply concerned about what kind of damage 
might be done. Where we went--the country can handle that. We 
were with a very responsible group of OHV handlers, and--I 
think it is an important element of what we do.
    Commissioner Johnson, thank you, again, for coming. Would 
you mind elaborating a little bit on the process used to 
establish the outline for this bill?
    Mr. Johnson. Yes, sir. As you recall, last year when we 
presented this bill, we essentially used the San Rafael Swell 
itself as the outline for the National Conservation Area.
    But in the process of working with the Department of the 
Interior, we looked at all of the other lands that had, you 
know, the need for some form of management and the need for 
this sort of special protection afforded by an NCA, and decided 
that we would expand those boundaries to cover those lands that 
would benefit from this four-year process. And, essentially, 
that is what we came up with in that process--you know, taking 
into account all of the factors of the land itself.
    Mr. Cannon. Is it your sense that the people in the county 
support the bill?
    Mr. Johnson. When we came to terms with this bill with the 
Department of Interior and BLM, we felt it was essential that 
we let our constituents in Emery County know where we were with 
this bill. It certainly is a movement for the local 
constituents in terms of its new concept and its sort of 
expansive dream.
    And so we decided that we would take it to as many people 
as we could. And in the process of doing that, we went to town 
councils, to water boards, cattlemen associations, OHV groups, 
every organization that met in our county in any manner--we 
attended their meetings and presented this plan to those folks.
    We also held a public hearing at the end of that process 
and invited folks to come and give their input on the plan. And 
they were overwhelmingly in support of our proceeding with this 
bill.
    Now, I would hope that we, in some way, could express to 
you what a wonderful concept this is for the folks of Emery 
County, who largely have sort of had these concepts of land 
management thrust down upon them over the last 20 or 30 years 
in a manner which has made them feel that they have not 
adequately taken care of those lands, and that they could not 
adequately continue to take care of those lands.
    So it has caused them to be a bit defensive. For them to 
recognize the status of public lands issues at this time in the 
history of this process, and for them to be willing to take 
this kind of a step to protect those lands, I think is a 
remarkable thing and a tribute to the understanding and 
willingness of the folks in Emery County to take good care of 
the San Rafael Swell area.
    Mr. Cannon. I also think it is a remarkable thing.
    Mr. Chairman, I notice my time has expired. Could I ask 
unanimous consent to extend my time for another five minutes?
    [Laughter.]
    I won't do that, but I do have a few more questions.
    Let me just ask you, Commissioner Johnson, one other 
question, or a compound question, actually. The bill doesn't 
provide specifically for wilderness designation. Could you talk 
a little bit about the advantages that has? And do you 
anticipate that some of the land will actually be managed in 
the same way as wilderness?
    Mr. Johnson. There is no question that much of the land 
will be managed as wilderness. Whether we call it wilderness, 
or whether we call it primitive, or what it ends up calling, I 
can't predict that. But I will tell you that there will be much 
of the land within that NCA that there is no question in my 
mind will be managed for its primitive qualities.
    And I think that there should be no threat to the fact that 
there isn't wilderness there. I think it should be more 
threatening if it was, because part of this whole process is 
that we have four years to look at that land in a very 
deliberate manner with a planning team that has expertise in 
recognizing qualities of the land and how they should be 
protected.
    And in that four-year process, I believe it will come up 
with a management scheme that fits the land very well. So I am 
comfortable that the land will be managed for--in the manner 
that it needs to be managed, and that those pristine lands will 
be adequately addressed.
    Mr. Cannon. The county has rights of way and access on many 
roads in the area. Do you expect to be trading off some of 
those rights in the context of an overall plan?
    Mr. Johnson. I don't know if trading off those rights would 
be an accurate way to say it. I think that there are places 
within this NCA where there is some indiscriminate use. But I 
would hope that folks would understand that there is a small 
handful of folks that sort of ignore the rules and the laws 
governing OHV use.
    It is the same in any other area of law. There is always a 
handful of folks who ignore the law and do what they want to 
do. And I would not want to paint a picture of OHV use being 
just indiscriminate whenever anybody starts a four-wheeler.
    Emery County has a lot of roads and a lot of trails in that 
area that we assert as RS2477. But we recognize that an early 
part of this planning process would be that we identify an 
access plan and work with the BLM and the Department of the 
Interior to come up with that access plan. And there most 
certainly would be some spurs and some trails and some roads 
that we would close as a result of that, because they are 
unnecessary or they are causing some undue degradation.
    But we also remind you that having a proper access plan is 
an essential part of the Legacy District. And so we would 
identify those roads which would most benefit getting to and 
from the sites that the tourists would want to see and that we 
need to preserve and protect and provide access to. So that 
will all be part of that plan.
    But the reason that I believe this will work in this plan 
to the benefit of all is because, in a cooperative effort, we 
draw everyone into this discussion, and the end product 
everyone has ownership in. And so if we have opened the road, 
everyone has decided that road is essential.
    If we close a road, everybody has decided that road is 
unessential. And we don't just have something that people feel 
threatened by, and, therefore, those handful of folks that are 
going to break the laws anyway are continuing to go into.
    The other part of it is that you have a couple of factors 
enter into it because of this process. One is we have the 
ability and the finances to do a far better job of educating 
the public. Some of the damage that is done down there is not 
deliberate.
    It is done because they are unsure where the trail is or 
where to go in some circumstances, and where they can and can't 
go. We would have a good, extensive education process that 
would come out of this to keep people in the proper places.
    The second thing that would come out of it is that we would 
have a cooperative enforcement effort. Now, the BLM simply 
doesn't have the manpower to handle a county the size of 
Connecticut with one man, essentially. When the county enters 
into it, then we would become partners in that protection, and 
we would help them make sure that the roads and trails that do 
remain part of this access plan are used properly and that 
undue degradation doesn't occur.
    Mr. Cannon. Thank you, Commissioner.
    Commissioner Petersen, I really enjoyed your comment, your 
idea that, I think you said, if you don't hear the stories, you 
have missed the best part of the Swell. So we need a commitment 
from you--and I haven't quite formulated this yet--but it has 
got to have to do with numbers of years you commit to live and 
number of poems you write per year.
    I suspect in the meantime we could get away with just a 
commitment that, as people visit, that you will share some of 
your cowboy poetry with them.
    Mr. Petersen. Well, we will certainly commit to doing that.
    Mr. Cannon. And you and I can talk later on about the other 
output issues.
    Mr. Petersen. If you will give me a guarantee on the number 
of years, I will be glad to accept it.
    [Laughter.]
    Mr. Cannon. Maybe we could increase the output over the 
years and then it is your responsibility to do the output and 
then get the years or something. I don't know.
    Could you talk a bit about what the purpose of the Legacy 
District is, and what some of the problems are that you are 
currently having that it will solve?
    Mr. Petersen. Well, we look at the Legacy District as a way 
to pull the whole thing together and make the local area part 
of it. This is the thing that will help to preserve the 
stories. In fact, we are out there doing that right now. Even 
as we speak, we have a couple of people who are out gathering 
oral histories to continue to have the history of the San 
Rafael Swell, and they are doing it with modern technology, so 
they have videotapes in addition to audio.
    But we want to have the stories, and we want--we know there 
are people that come to visit the Swell right now. I drive 
across it fairly regularly. Molly talked about the I-70 across 
there. I wonder what people think who have no idea what they 
are coming on, they have never heard of the San Rafael, and 
they are coming from the east and they see the San Rafael Reef, 
and then they drive across the Head of Sinbad, and they see all 
of that country, and they don't have the slightest idea what it 
is. I just wonder what people think.
    We want to tell those people what they are seeing. We want 
to get them into our community, so that perhaps they can leave 
a few dollars. We want to focus the visitors so they can go out 
and have a good experience, so they can hear the stories and 
they can see the things out there, but they don't destroy what 
they are seeing in the meantime. We don't want to have 
everybody in the world coming out there and tramping around, 
but we do want some of them to come and help us to sustain some 
kind of an economy with it.
    Mr. Cannon. I have to say that drive over I-70 is one of 
the most remarkable on earth. It is breathtaking. I love to 
travel my district. I really love going over that stretch of 
highway.
    Can you talk a little bit about what kind of dialogue you 
have had on off-highway vehicle use within the county?
    Mr. Petersen. There has been a lot of it. I guess that 
would summarize it fairly well. But I think we need to make 
this point very clear. I think the majority of people down 
there already feel that we think the off-road vehicle use 
should be on designated roads and trails.
    We have talked a lot with the BLM. I suppose when we get 
right down on a few roads we might have some very interesting 
dialogue. But overall, I think we can agree that we want to 
control it. The ORV community has joined together to work with 
the BLM to try and protect some areas, and we have some very 
interesting things that have been done.
    They volunteered to put in some of the signage. We think 
that if a sign is out there, if it isn't a sign that just says 
the BLM says this is wilderness, you can't go, but is something 
done by the local ORV community saying, ``This is where the 
road goes, up here. If you stay on this road, this is what you 
will see. Don't get off this road. You will destroy our land,'' 
those kind of things we think will work.
    Mr. Cannon. Great. Thank you, Commissioner.
    Mr. Chairman, you have been very generous with the time. I 
would just like to thank this panel. This group has been 
remarkably assiduous in a long and difficult task, and I think 
that the product is really good for Utah public lands and for 
America and for the citizens of America.
    Thank you very much.
    Mr. Hansen. Thank you, Mr. Cannon.
    The gentlemen from New Mexico, Mr. Udall, any questions for 
this panel?
    Mr. Udall. I will pass, Mr. Chairman. Thank you very much, 
though.
    Mr. Hansen. Thank you, Mr. Udall.
    Molly, let me just submit to you some questions. As I have 
been getting up to speed on this bill, it seems like if there 
is a little rough spot we have got to kind of sand down a 
little bit, it may be on water rights. And so if I could, I 
would like to probably not really ask you specifically here but 
maybe submit to you questions about the administration's 
concerns on that.
    And also--and I am sure you realize the in-stream flow 
right of the State of Utah that they have in the San Rafael 
River. If I could prevail upon you to respond to those by 
letter, I would really appreciate it. I could get that to you. 
And I do want to tell you and Sally Wisely how much we 
appreciate your testimony today.
    Commissioner Johnson, one of the debates we have had around 
this Committee for the last 20 years is where do we stand on 
just--I want your opinion. I know few individuals, you and 
Commissioner Petersen, who have spent more time on the lands of 
Utah. And there seems to be a debate that always is prevalent 
in this Committee. Is wilderness the only way to protect 
ground?
    I have heard this debated since the day I walked in here in 
1980. And, actually, under the past two administrations they 
argued, as this one has sometimes, that the management plans of 
BLM, Forest Service, Park Service does a better job of 
protection.
    There seems to be a perception out there that is fast 
dwindling, is what is the best way to protect ground? A man of 
your stature and your understanding, I would like you to 
respond to that issue.
    Mr. Johnson. Well, certainly not trying to offend anyone, 
but just responding to you from my personal perspective, I 
would say that it is concerning to me when we have a concept or 
an idea that is held by one group or individual that they feel 
is so pure and so perfect that all other ideas are hostile to 
that, and that it becomes so pervasive that it sort of 
deadlocks and logjams all other considerations.
    And I am afraid that what was once an excellent concept of 
setting aside certain exemplary lands has so permeated the land 
management discussion that it causes us to be at odds with each 
other all the time, it causes us never to be able to make 
progress, and it causes us to constantly be in turmoil over 
what we should do on our public lands.
    Now, what I am saying is that the original vision of 
wilderness I think was a good one, but it has been taken to the 
point where it makes it impossible for us to even get any work 
done, and because of that I don't like the concept of 
wilderness. Not because I don't like that vision, but because I 
don't like where it has been taken.
    What we have tried to do with this discussion is to 
recognize that everyone has an opinion on how our public lands 
should be managed. It is interesting to me, because when I pull 
up through I-70--or I used to live up in the Oregon area years 
and years ago, and there are some wonderful arching bridges 
that cut across some of those canyons and gorges down the 
Columbia River Gorge.
    It is a remarkable thing to me to see the engineering of 
man as you watch a glistening highway cut across some of those 
lands or a beautiful bridge cut across against those green 
hills. I think it is a wonderful thing to see the ingenuity of 
man blended against the beauty of nature. I think that is 
wonderful.
    There are those who think that any sign of man is a scar on 
the land. Am I wrong and they are right? Are they wrong and I 
am right? And, see, that is where we have been thrust with this 
whole wilderness debate. There are many opinions that ought to 
be valued.
    We have the OHV use, for example. The way that we have 
portrayed that is that anybody who gets on a four-wheeler and 
wants to go down and visit those beautiful lands is evil and 
destructive, and they are going to go off and do bad things. 
That is largely untrue. In fact, some of the OHV clubs in the 
State of Utah are the most responsible users of our public 
lands, and yet their voice is constantly pushed to the side 
because of the image that is created.
    What we have tried to do with this bill, sir, is draw 
everyone possible to the table and say, ``We value your 
opinion. Let us come up with a package that can protect these 
lands properly, that can manage the use of those lands, that 
factors in the human equation that we cannot ignore, and then 
comes up with a protective package that does all of that 
properly.''
    I think that we can do that with this bill, and I think 
that that is where we need to go with public lands issues, 
because we simply can't abide a deadlock for the rest of our 
lives. I am tired of the fight, and I think a lot of people 
are.
    Mr. Hansen. I appreciate that well thought out answer. You 
know, I think that the agencies--BLM, Forest Service, Park 
Service--have really done a remarkable job over the years in 
taking care of the public lands. You have got to hand it to 
them for working very well.
    Of course, there has been an entire industry built around 
one word, and, really, kind of a misconception in many areas. 
We have done a very unscientific area of what happens to an 
area once it is put in wilderness. It draws a lot of attention. 
It is almost like a big, red, sore thumb sitting there saying, 
``Come and see us.''
    And sometimes areas that are never mentioned have the most 
pristine qualities to them. Always a tough issue, but it is one 
of the biggest issues that we face in this Committee, if I may 
say so. Appreciate your comments.
    The gentleman from Utah, the gentleman from New Mexico, any 
further questions for this panel? Anybody inspired to say 
anything?
    [Laughter.]
    Mr. Udall. A couple of questions, Mr. Chairman.
    Mr. Hansen. This is one of those easy days. Nothing is 
going on on the floor, and they rarely happen this way. You 
know, most of the time we are pressed for every second.
    The gentleman from New Mexico?
    Mr. Udall. The last discussion we just had was about 
wilderness and the idea that it had been taken too far. My 
understanding is there are some lands within this area that may 
well have wilderness values. Do you agree with that? I would 
ask the members of the panel. And if you do, what are your 
intentions as far as getting these into wilderness? And I 
would--go ahead, Commissioner, we will start with you, and 
then----
    Mr. Johnson. Since this is rather--a little less stressful 
than some I have testified at in this area, I would like to 
recognize that I have my granddaughter Libby with me today, and 
she has come to share this experience, Mr. Chairman, and then I 
will answer your question.
    I would be the first to acknowledge that there are lands 
within this NCA that have pristine qualities. Absolutely. And I 
would be the first to assure you that in this planning process 
those areas would be addressed to protect those pristine 
qualities.
    Again, I reiterate, I don't know the answer as to whether 
we will call that wilderness or we will call it something else. 
But it will address the wilderness qualities of the land and 
protect for them. Within this area, there are already 
established WSAs, and so nothing about this bill would take 
away the BLM's responsibility to manage those WSAs for non-
degradation.
    So they are under an obligation to address those lands in 
the planning process, because they are already in WSA status.
    There are also some lands in here that have been 
reinventoried and found to have some wilderness qualities. So 
you can see that we are not trying to sidestep that issue by 
this planning process. We recognize that in the four-year plan 
we will have to address those, and we will do so willingly.
    Mr. Udall. Thank you. Any other members of the panel that 
wish to comment on that?
    Ms. McUsic. Yes, Congressman Udall. We believe strongly 
that there is a significant portion of this area that is 
deserving of wilderness protection. There is at least some over 
600,000 acres of land that has WSA status currently or were 
inventoried to find wilderness characteristics.
    There is nothing in this bill that is inconsistent with 
ultimately having wilderness protection or the continued 
management of these WSAs and interim protections. This 
essentially holds harmless while the debate continues. It 
provides significant protections for these lands by eliminating 
the mining and leasing and providing off-road vehicle 
protections. But, yes, we believe that a significant portion of 
this land should be protected.
    Mr. Udall. Thank you very much.
    Mr. Hansen. Thank you, Mr. Udall. We appreciate your 
comments.
    We want to thank the Committee. You have been very generous 
with your time, and we appreciate your being with us, 
appreciate the excellent testimony from all of you, and 
recognize Libby, Commissioner, and we are glad your 
granddaughter could be with you at this particular time.
    At this time, we will call our second panel. Our last panel 
is Mr. Wilson Martin, Deputy State Historic Preservation 
Officer, Utah Division of State History; Courtland Nelson, 
Director, Utah Division of Parks and Recreation; Wesley R. 
Curtis, Director of the Governor's Rural Partnership Office; 
and Mike Matz, Executive Director of the Southern Utah 
Wilderness Alliance.
    Folks, please come up. We appreciate your being here with 
us. Get everybody in their place there and ready to go.
    Mr. Martin, we will start with you, and the same thing 
holds. It is one of those easier days. You can go ahead and----

STATEMENT OF WILSON MARTIN, DEPUTY STATE HISTORIC PRESERVATION 
  OFFICER, UTAH DIVISION OF STATE HISTORY-PRESERVATION OFFICE

    Mr. Martin. Well, Mr. Chairman, it is good to be here 
again. I am glad to have Sally Wisely back in Utah. It was just 
a few years ago that we worked together on the Four Corners 
Heritage Council, which I currently serve as Chair, and she was 
very helpful and instrumental in helping us bring that 
partnership together, which has some similarities with this 
partnership.
    So I am glad to have her back on board. She spent a little 
stint in Alaska, and then came back to us in Utah. So we are 
glad to have you back, Sally.
    Mr. Chairman, some two years ago, this Committee considered 
another proposal similar to this, and we found and made good 
progress because of this effort and also the BLM's commitment, 
providing some funding to help us move the Legacy District 
concept along. Also, the County Commission has held numerous 
meetings, which have been very helpful in establishing a 
dialogue on the Legacy District.
    In partnership with Utah State University, we have also 
developed a database of heritage shops and businesses and 
attractions which we think will be very important in planning 
this legacy area. The county has also committed a significant 
number of assets, but it is interesting, the history.
    Edward Geary said the earliest European-American travelers 
clearly on record as visiting the county was Jedidiah S. Smith 
during a southwestern expedition of 1826. Smith found the 
region unpromising, he said, describing it as very barren, 
rocky, with little appearance of Indians, and quite scarce in 
the area of mountain sheep and antelope. Now we have seen a 
change in that.
    The Old Spanish Trail reached its further northernmost 
point in Emery County in order to skirt the canyonlands and 
take advantage of the Green River crossing and the relatively 
low elevation of the Wasatch Pass. In some places, visible 
traces of thousands of horses and mules that traveled the trail 
remained imprinted on the land until the mid 20th century.
    Now only the San Rafael name has remained to memorialize 
the era, though at one time many landmarks bore Spanish names. 
Huntington Canyon was known as San Marcus, Cottonwood Creek as 
San Mateo, Muddy Creek as Rio del Morro or Castle River, and 
Ivie Creek as Rio del Puerto or the River of the Pass.
    Most of the recorded impressions of the Emery County region 
by early travelers carried on the uncomplimentary tradition 
established by Jedidiah Smith. George Yount, a member of the 
1830 William Wolfskill party, remembered Castle Valley as the 
most desolate and forlorn dell in the world. ``Everything about 
it was repulsive and supremely awful,'' he said.
    Hanna Seely, compelled to trade a spacious brick home in 
Mount Pleasant for one-room log cabin on the banks of the 
Cottonwood Creek, was initially less optimistic than her 
husband about the region's prospects. She later recalled, ``The 
first time I ever swore was when we arrived in Emery County.''
    [Laughter.]
    I said, ``Damn a man who would bring a woman''--can I say 
that? ``Damn a man''--I guess I can. ``Damn a man who would 
bring a woman to such God-forsaken country,'' she said.
    The district, however, contains examples of pre-Columbian 
and Native American culture, Paleontological resources, 
geologically unique land features, and the history of 
exploration, pioneering, settlement, ranching, outlaws, 
prospecting, and mining. The San Rafael's resources support the 
development of a Legacy District.
    The rock now exposed contains a wealth of a geological 
record, including fossils of dinosaurs, as we have talked about 
before at the Cleveland Lloyd. Over 300 Pictograph and 
Petroglyph panels are scattered throughout this complex maze of 
canyons and cliffs in a region along with Paleo-Indian sites, 
the Black Dragon Canyon Pictographs, Ferron Box Pictographs and 
Petroglyphs, Rochester-Muddy Creek Petroglyphs, and the Temple 
Mountain Wash Pictographs.
    All are listed on the National Register of Historic Places. 
These sites have national significance for their beauty and for 
their age--many historic sites, and also attractions, that 
exist in the communities.
    Other destinations include Cedar Mountain Driving Tour, 
which gives the public access to archaeological sites of the 
area. There are not just National Register sites that can 
attract visitors, but sites from the 1950s, including Temple 
Mountain Uranium Mines, where unique stories can be told.
    Emery County residents not only cherish their rural 
heritage, but also place a high value on easy access to both 
the Wasatch Plateau and the San Rafael Swell. Local people tend 
to read their own and their families' histories in these public 
lands. They return year after year to the same mountain 
campsites or take their Easter excursions to some favorite 
destination in the San Rafael.
    Ask Kent about those experiences. The Easter celebrations 
in San Rafael are notorious.
    They show their children and grandchildren where a pioneer 
ancestor scratched his name on a rock, or where a sheepherding 
great-uncle carved an inscription on the smooth white bark of a 
quaking aspen. The trails where the family's cattle were once 
driven to the summer range on the mountains or the winter range 
in the desert, the forest clearing where a relative once 
operated a sawmill, the ledge where grandpa almost struck it 
rich during the uranium boom, all have deep personal meaning, 
according to Ed Geary.
    Wallace Stegner remarked on the aloofness with which this 
country greeted human intrusion and the effect it had on its 
settlers. The plateau remains aloof and almost uninhabited, but 
the valleys are a collaboration between land and people, and 
each has changed the other.
    The San Rafael Swell has the resources, the people, and the 
organizations to develop a Legacy District. Together they can 
assist in conserving this important heritage area, establish 
and maintain interpretive destinations, develop recreational 
opportunities and increased public awareness, and appreciation 
of the natural, historical, and cultural resources.
    Not only this, but economic development can be realized. 
Much of the land is Federal and managed by the Bureau of Land 
Management, which makes the Legacy District a good idea and a 
good fit.
    The Legacy District, developed in conjunction with 
businesses, local, State, and Federal partners, has an 
excellent opportunity for success. Most importantly, it is a 
partnership for economic development and has, as we call it in 
Utah, the opportunity to develop a heritage industry, a 
partnership between private and public sector to achieve 
economic success through the use and protection of our past.
    These landscapes and culture and heritage of these people 
and these communities will better be protected and served 
through the designation of the county as the San Rafael Western 
Legacy District, where they will serve as a living part of our 
national historic heritage for current and future generations. 
We strongly support the passage of House Resolution 3605 to 
create the San Rafael Western Legacy District in Utah.
    [The prepared statement of Mr. Martin follows:]
    Mr. Hansen. Well, thank you very much for that very 
interesting testimony. I like that part where you said grandpa 
almost struck it rich.
    Mr. Martin. There is a lot of stories like that out there, 
Mr. Chairman.
    Mr. Hansen. My father was one of those.
    [Laughter.]
    Mr. Cannon. Maybe this was from him. I don't know.
    Mr. Hansen. Courtland Nelson, grateful to have you with us. 
We will turn the time to you, sir.

STATEMENT OF COURTLAND NELSON, DIRECTOR, UTAH DIVISION OF PARKS 
                         AND RECREATION

    Mr. Nelson. Good morning, Mr. Chairman, members. I am 
Courtland Nelson, Director of the Utah Division of Parks and 
Recreation. Under the direction and support of Governor Michael 
Leavitt, our organization has worked diligently to cooperate 
with local and Federal agency partners to protect Utah's 
natural, cultural, and recreational areas.
    Specifically, in Central and Southern Utah, we have several 
parks which have direct or collateral responsibilities with the 
Bureau of Land Management and the U.S. Forest Service in the 
protection of resources and the management of recreation on 
State and Federal lands. Our joint planning efforts and 
management activities, whether initiated by Federal 
requirements or State policy, have led me to some observations 
regarding the San Rafael area.
    The San Rafael Swell has been discovered. Bisected by I-70, 
in close proximity to Moab, and within 250 miles of two million 
people, the ever-growing impacts are real. Every year, each 
spring, comes more and more users to the area. The users are 
wide and varied in their interests, but visitors have impacts 
which need to be managed.
    Second, without a plan which has come from local, State, 
Federal, and special interest groups, management and the public 
good will be lost on individual issues. This bill spells out a 
solid four-year planning process desperately needed for an area 
that is on the front end of significant change.
    Parenthetically, House Bill 701, the Conservation and 
Reinvestment Act, could be a very strong financial tool for the 
application of this plan.
    Number three, wilderness values need to be an important 
part of the planning discussion. Certain areas within the Swell 
have significant wilderness components. The six wilderness 
areas, however, are often adjacent to locations, showing the 
impacts of 150 years of man's influence, whether it is 
ranching, mining, or recreational activity.
    The history of the Swell is a geological, biological, and 
cultural story. For our purposes, the stories have different 
audiences--wilderness proponents, educational interests, 
grazing leaseholders, archaeological enthusiasts, miners, and 
so on. Let us find a way to have the beauty and wonder of 
wilderness protected but not at the exclusion of other 
legitimate activities.
    I have hiked the Swell in the dead of winter and the blast 
furnace heat of summer, meandering from slot Canyons to scenic 
mountaintops with vistas of 200 miles or more. I have traveled 
on roads lined with ancient Petroglyph panels, sneaking a peek 
at the more modern autographs of the Butch Cassidy gang on the 
same wall.
    I have camped on Sid's Mountain, in old mining camps, in an 
isolated mesa where my family and I enjoyed the solitude of the 
high desert on a cloudless evening. I have enjoyed dirt bikes, 
mountain bikes, day hikes, dutch oven dinners, cowboy poetry, 
spring water in the heat of the day at Swasey's Cabin, and the 
campfire stories of geologic wonders and human blunders while 
recreating in the Swell. The San Rafael is a wonderful place.
    However, as Director of Utah State Parks System, I am 
deeply concerned with the ramifications of population growth in 
the inner mountain area, compounded by ever-increasing tourism. 
Both of these trends result in greater and greater impacts on 
natural and cultural resources. The abundance of wildlife 
populations, the presence of irreplaceable cultural resources, 
the variety of recreational opportunities and majestic 
landscapes, are all elements which can be negatively affected 
by the sheer growth of unbridled recreation use.
    This scenario is being replicated across Utah and 
throughout the West, as we all know. All land management 
agencies, local, State, and Federal, struggle with this 
relatively new condition. One way our agency has found to deal 
with this problem is by working together across boundaries to 
resolve issues of mutual concern.
    Utah State Parks partners with the BLM in places as diverse 
as Yuba Reservoir, Coral Pink Sand Dunes, the Colorado River, 
and to assist in the problems of protection of the resources 
and public. We work with local governments in places like 
Goblin Valley in Emery County and Antelope Island in Davis 
County and the Great Salt Lake to do the same.
    I believe that H.R. 3605 is a recipe for just such a 
collaborative effort. I support the bill because I believe the 
planning process it outlines will ultimately bring more human 
and financial resources to the planning table.
    And what a wonderful piece of American West the San Rafael 
Swell is--an anticline of immense proportions, cut by deep 
canyons, rare, arid, high evaluation grasslands, ringed by 
sandstone domes, buttes and mesas. It is a land of secret, 
hidden springs surrounded by grand, vast, open vistas.
    It is an ecosystem supporting one of the largest bighorn 
sheep herds in Utah. The western saga has also left its 
imprint, which Wilson covered.
    As the Committee well knows, the land use issues that are 
currently--we are dealing with are some of the most divisive, 
rancorous, and emotions facing the American West. Only by 
working together, building respect, trust, and confidence, can 
we ever hope to truly and permanently solve some of our land 
use issues.
    In conclusion, the variety and range of resources in the 
San Rafael Swell demands a sophisticated approach in utilizing 
the land manager's entire tool set.
    H.R. 3605 conceptualizes a planning process to bring 
together citizens with diverse interests and values to work 
with Federal, local, and State agencies to protect these lands 
and benefit the public. The Division of Parks and Recreation 
and our sister agencies in the Department of Natural Resources 
stands ready to roll up our sleeves and work with the 
citizenry, the BLM, the Department of Interior, and Emery 
County to do a wonderful thing in the San Rafael Swell.
    Thank you.
    [The prepared statement of Mr. Nelson follows:]
    [GRAPHIC] [TIFF OMITTED] T4874.013
    
    [GRAPHIC] [TIFF OMITTED] T4874.014
    
    [GRAPHIC] [TIFF OMITTED] T4874.015
    
    Mr. Hansen. I thank you, Mr. Nelson. Also, I wanted to 
thank you for taking me into that area and spending time with 
me and explaining a lot of things to me. That was very kind of 
you to do that.
    Mr. Wesley Curtis, we will turn to you, sir.

   STATEMENT OF WESLEY R. CURTIS, DIRECTOR, GOVERNOR'S RURAL 
                       PARTNERSHIP OFFICE

    Mr. Curtis. Thank you, Mr. Chairman. My name is Wes Curtis. 
I am a member of the Governor of Utah's senior staff, as well 
as Director of the Governor's Rural Partnership Office. I am 
here today representing Governor Leavitt and the interests of 
the State of Utah. I do appreciate this opportunity to talk to 
you about a remarkable proposal for protecting one of the 
Nation's unique public land and heritage treasures--the San 
Rafael Swell.
    I begin by stating that H.R. 3605, the San Rafael Western 
Legacy District and the National Conservation Area, has the 
full endorsement and support of Governor Leavitt.
    H.R. 3605 is the product of years of work and a long 
process of public involvement. It is a marvelous manifestation 
of local initiative acting in the national interest. It is a 
remarkable example of the innovation and quality that can occur 
when public processes are allowed to take root and develop in a 
natural and healthy way.
    The product of this effort is a proposal that addresses 
both the protection needs of the public lands, as well as the 
long-term economic future of the region. It is a unique 
proposal that could only be designed by those who are closest 
to the lands and who understand its intricacies and nuances.
    This proposal is evidence of a positive and courageous 
attitude on the part of the local leaders in Emery County as 
well. They have been willing to break ranks with many of their 
sister counties and actively pursue a legitimate conservation 
initiative. They have done this because they honestly want to 
see the Swell managed in a responsible manner that will protect 
all of its resources, both natural and historic.
    Consider for a minute what this measure will do. First, the 
National Conservation Area will provide comprehensive 
management for what amounts to an entire ecosystem, preserving 
the integrity of the whole resource.
    Second, this proposal withdraws the threats of new oil 
drilling, mining, and timbering from the lands within the NCA 
boundary--a remarkable concession for a rural county with an 
economy based on mineral extraction.
    Third, it recognizes the new economic realities being faced 
by rural communities in the West. Thus, it provides an 
innovative means for helping the region transition from an 
extractive/resource-based economy to a new sustainable economy, 
while at the same time preserving nationally important 
historical treasures.
    This will be accomplished through the creation of a Western 
Legacy District. Preserving the scenic and historic resources 
of the Swell is viewed locally as caring for the goose that can 
lay the golden eggs. It is critical to the future economic 
viability of the area.
    This legislation is viewed as an important step in the 
direction of environmental protection, as well as being a far-
sighted approach to achieving a greater degree of economic 
sustainability in the San Rafael region.
    At this point, I would like to address two other important 
concepts related to the objectives and the intent of this 
legislation.
    The first has to do with the potential for future 
wilderness designations within the National Conservation Area. 
This bill has deliberately avoided any attempt to designate any 
specific lands as wilderness because there are other processes 
in motion--on the part of the BLM and others--that will 
ultimately determine which lands will receive wilderness 
designation.
    It is important to note that this bill is wilderness 
neutral. It does not affect nor delay these wilderness review 
processes in any way. It allows the wilderness issue to be 
dealt with through the processes and mechanisms that are 
already in place, without hampering nor hindering those 
processes.
    In that same context, it is also important to note that 
this bill does not contain any wilderness release language, so 
no lands with wilderness potential are adversely affected by 
this legislation.
    What this bill does do is provide a much higher degree of 
protection for these lands during the time that wilderness 
issues are being reviewed and debated--namely, withdrawal from 
mining and drilling. This bill is not a compromise on the 
wilderness issue, nor is it an attempt to circumvent the 
wilderness processes. It simply, and deliberately, does not 
deal with the issue. It is, however--and I emphasize this--an 
important step forward, a step toward protecting these lands 
until these issues are ultimately resolved.
    The second issue I wish to address has to do with the 
management of off-road vehicle use within the San Rafael Swell. 
I can assure you that the State of Utah, along with the local 
citizens of the San Rafael region, are very concerned about the 
damage that is being caused by the misuse of OHVs. It is 
reassuring to note that there is strong local support for 
addressing this concern and for taking action to stop the 
bleeding.
    For this reason, Emery County has formally asked the BLM to 
address this issue and to develop a comprehensive 
transportation management plan for the area as soon as 
possible. Emery County recognizes that this issue must be 
addressed whether or not this legislation passes. The BLM has 
responded positively and affirmatively, and is already moving 
forward in addressing this OHV issue.
    It needs to be clearly understood that the implementation 
of a BLM OHV management plan will not have to wait on the four-
year planning process associated with the National Conservation 
Area. These wheels are already in motion under existing NEPA 
processes, and may well be completed before the NCA planning 
process even begins.
    In conclusion, may I repeat that this legislation takes an 
important step forward in the conservation and management of 
one of the Nation's most important natural and historic 
resources. At the same time, it is also sensitive and 
innovative in dealing with future economic needs of the 
affected region. There is no down side to this proposal. 
Passage of this legislation just simply makes good sense.
    Thank you, Mr. Chairman, for providing me the opportunity 
to address this Committee.
    [The prepared statement of Mr. Curtis follows:]

    Statement of Wes Curtis, Director, Governor's Rural Partnership 
                          Office,State of Utah

    Mr. Chairman, Ranking Member, and members of the 
Subcommittee, my name is Wes Curtis. I am a member of the 
Governor of Utah's senior staff, as well as director of the 
Governor's Rural Partnership Office. I am here today 
representing Governor Leavitt and the interests of the State of 
Utah. I appreciate this opportunity to talk to you about a 
remarkable proposal for protecting one of the nation's unique 
public land and heritage treasures--the San Rafael Swell.
    I begin by stating that H.R. 3605, the San Rafael Western 
Legacy District and National Conservation Area, has the full 
endorsement and support of Governor Leavitt.
    H.R. 3605 is the product of years of work and a long 
process of public involvement. It is a marvelous manifestation 
of local initiative acting in the national interest. It is a 
remarkable example of the innovation and quality that can occur 
when public processes are allowed to take root and develop in a 
natural and healthy way.
    The product of this effort is a proposal that addresses 
both the protection needs of the public lands, as well as the 
long-term economic future of the region. It is a unique 
proposal that could only be designed by those who are closest 
to the lands and who understand its intricacies and nuances.
    This proposal is evidence of a positive and courageous 
attitude on the part of local leaders in Emery County. They 
have been willing to break ranks with many of their sister 
counties and actively pursue a legitimate conservation 
initiative. They have done this because they honestly want to 
see the ``Swell'' managed in a responsible manner that will 
protect all of its resources--both natural and historic.
    Consider for a minute what this measure will do:
    First, the National Conservation Area will provide 
comprehensive management for what amounts to an entire eco-
system, preserving the integrity of the whole resource.
    Second, this proposal withdraws the threats of new oil 
drilling, mining and timbering from the lands within the NCA 
boundary--a remarkable concession for a rural county with an 
economy based on mineral extraction.
    Third, it recognizes the new economic realities being faced 
by rural communities in the West. Thus, it provides an 
innovative means for helping the region transition from an 
extra active/resource based economy to a new sustainable 
economy--while at the same time preserving nationally important 
historical treasures. This will be accomplished through the 
creation of a Western Legacy District. Preserving the scenic 
and historic resources of the Swell is viewed locally as caring 
for the goose that can lay the golden eggs. It is critical to 
the future economic viability of the area.
    This legislation is viewed as an important step in the 
direction of environmental protection, as well as being a far-
sighted approach to achieving a greater degree of economic 
sustainability in the San Rafael region.
    At this point, I would like to address two other important 
concepts related to the objectives and intent of this 
legislation.
    The first has to do with the potential for future 
wilderness designations within the National Conservation Area. 
This bill has deliberately avoided any attempt to designate any 
specific lands as wilderness because there are other processes 
in motion--on the part of the BLM and others--that will 
ultimately determine which lands will receive such designation.
    It is important to note that this bill is ``wilderness 
neutral.'' It does not affect nor delay these wilderness review 
processes in any way. It allows the wilderness issue to be 
dealt with through the processes and mechanisms that are 
already in place, without hampering nor hindering those 
processes.
    In that context, it is also important to note that this 
bill does not contain any wilderness release language, so no 
lands with wilderness potential are adversely affected by this 
legislation.
    What this bill does do is provide a much higher degree of 
protection for these lands during the time that wilderness 
issues are being reviewed and debated--namely, withdrawal from 
mining and drilling. This bill is not a compromise on the 
wilderness issue nor is it an attempt to circumvent wilderness 
processes. It simply, and deliberately, does not deal with the 
issue. It is, however, an important step forward--a step toward 
protecting these lands until these issues are ultimately 
resolved.
    The second issue I wish to address has to do with the 
management of off-road vehicle use within the San Rafael Swell. 
I can assure you that the state of Utah, along with the local 
citizens of the San Rafael Region, are very concerned about the 
damage that is being caused by the misuse of OHVs. It is 
reassuring to note that there is strong local support for 
addressing this concern and for taking action to ``stop the 
bleeding.''
    For this reason Emery County has formally asked the BLM to 
address this issue and to develop a comprehensive 
transportation management plan for the area as soon as 
possible. Emery County recognizes that this issue must be 
addressed whether or not this legislation passes. The BLM has 
responded affirmatively, and is already moving forward in 
addressing the OHV issue.It needs to be clearly understood that 
implementation of a BLM OHV management plan will not have to 
wait on the four year planning process associated with the 
National Conservation Area. These wheels are already in motion 
under existing NEPA processes.
    In conclusion, may I repeat that this legislation takes an 
important step forward in the conservation and management of 
one of the nation's most important natural and historic 
resources. At the same time, it is also sensitive and 
innovative in dealing with future economic needs of the 
affected region. There is no down-side to this proposal. 
Passage of this legislation just simply makes good sense.
    Thank you, Mr. Chairman, for providing the opportunity to 
address this Committee.

    Mr. Hansen. Thank you, Mr. Curtis.
    Mr. Mike Matz, we will turn to you, sir.

   STATEMENT OF MIKE MATZ, EXECUTIVE DIRECTOR, SOUTHERN UTAH 
                      WILDERNESS ALLIANCE

    Mr. Matz. Mr. Chairman, members of the Subcommittee, my 
name is Mike Matz, and I am the Executive Director of the 
Southern Utah Wilderness Alliance, Utah's largest conservation 
organization with 18,000 members, over half of whom live in our 
beautiful State.
    We are very grateful for the opportunity to present our 
views today on H.R. 3605, legislation which would establish the 
San Rafael Western Legacy District, and the San Rafael National 
Conservation Area. We wish also to express our lament and 
concern that we don't see Representative Vento on the dais 
there with you, but we understand he is making progress, 
walking a mile a day, even as he undergoes treatment, and we 
hope he is back among you in good health very soon.
    As you well know, Mr. Chairman, the Utah wilderness to date 
has been an arduous one. You and Senator Garn passed 
legislation in 1984 to designate wilderness for lands 
administered on behalf of the American public by the U.S. 
Forest Service, and we applaud you for that legislation.
    Since then, the as yet unanswered question of how much 
public land administered by the Bureau of Land Management 
should be designated as wilderness has lingered. The 
conservation community has united behind H.R. 1732, a bill 
which would answer this question completely by designating a 
bit under 40 percent of BLM land in Utah as wilderness.
    It is a reasonable resolution that has considerable 
support. The majority of people in Utah stand behind the 
citizens' proposal and the national interest is apparent in the 
fact that more than 150 members of Congress have co-sponsored 
this legislation.
    Five years ago, Mr. Chairman, you sponsored legislation 
that would have designated a little more than 180,000 acres of 
wilderness in the same region covered by the legislation on 
which today you are taking testimony. Two years ago, another 
bill like H.R. 3605, introduced by Representative Cannon, 
included about 140,000 acres of wilderness--less than what you 
had earlier proposed. Neither of those bills passed.
    Today, this Subcommittee is gathering testimony on 
legislation that would designate no wilderness. This is 
movement in the wrong direction and signals a disappointing 
backwards regression.
    The administration has indicated its interest in H.R. 3605, 
based on its discussions with Emery County officials, and 
testimony by the Interior Department has covered the detail. We 
would like to take a step back and point out the bigger 
picture.
    The Clinton Administration has of late exercised its 
rightful authority under the 1906 Antiquities Act to establish 
new national monuments much like the Grand Staircase Escalante 
in our own State.
    Secretary Babbitt has announced his intention to create a 
legacy of what he calls national landscape monuments, which is 
a proposition we avidly support, as does the general public. 
Mr. Babbitt would like to ensure that large tracts are 
withdrawn from mineral development and oil and gas development, 
two of the more serious threats.
    By moving legislation to do just that for the San Rafael 
Swell, you are helping Secretary Babbitt and we support your 
assistance in accomplishing his goal.
    We are very appreciative this legislation would prevent oil 
and gas development or mining from spoiling most of the San 
Rafael Swell. Secretary Babbitt understands that these 
activities are harmful to any landscape, yet he and others at 
the Interior Department are perhaps not fully aware of the 
specific problem in the San Rafael Swell.
    Field professionals in the Bureau of Land Management are 
acutely aware of the specific problem. This place is being 
overrun by off-road vehicles. BLM has documented widespread 
soil erosion, airborne dust, degradation of water supplies, 
impacts to wildlife and its habitat, and serious loss of native 
vegetation. Written field reports are awash with examples of 
ORV abuses.
    If I could, Mr. Chairman, I would like to enter these BLM 
field reports into the record.
    Mr. Hansen. No objection.
    Mr. Matz. This legislation does nothing to deal with that 
pervasive problem. H.R. 3605 makes the problem worse, actually, 
because it would postpone anything from happening until four 
years from the date of enactment. During that four-year period, 
as yet another plan for this region is prepared--and likely 
beyond that time, as the experience with other plans 
demonstrates--continued abuse of off-road vehicles will occur.
    Mr. Chairman, my written testimony provides details 
regarding rampant use of ORVs in the San Rafael Swell. So let 
me conclude by simply summarizing. We would very much like to 
see resolved the general issue of wilderness in Utah. H.R. 3605 
makes no progress in this regard. The bill, as written, 
unfortunately makes the problem in that region even worse.
    We would like to support H.R. 3605, but until two 
significant deficiencies are remedied we cannot. One is that 
the legislation should include all of the San Rafael Swell. The 
other is that ORVs have to be dealt with in a meaningful 
manner.
    Again, we appreciate the opportunity to testify, and I am 
happy to answer any questions.
    [The prepared statement of Mr. Matz follows:]
    [GRAPHIC] [TIFF OMITTED] T4874.016
    
    [GRAPHIC] [TIFF OMITTED] T4874.017
    
    [GRAPHIC] [TIFF OMITTED] T4874.018
    
    [GRAPHIC] [TIFF OMITTED] T4874.019
    
    [GRAPHIC] [TIFF OMITTED] T4874.020
    
    [GRAPHIC] [TIFF OMITTED] T4874.021
    
    [GRAPHIC] [TIFF OMITTED] T4874.022
    
    [GRAPHIC] [TIFF OMITTED] T4874.023
    
    [GRAPHIC] [TIFF OMITTED] T4874.024
    
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T4874.025
    
    [GRAPHIC] [TIFF OMITTED] T4874.026
    
    [GRAPHIC] [TIFF OMITTED] T4874.027
    
    [GRAPHIC] [TIFF OMITTED] T4874.028
    
    [GRAPHIC] [TIFF OMITTED] T4874.029
    
    [GRAPHIC] [TIFF OMITTED] T4874.030
    
    Mr. Hansen. Thank you, Mr. Matz. Appreciate your testimony.
    Mr. Cannon, you are recognized for questions for the panel.
    Mr. Cannon. Thank you, Mr. Chairman.
    Again, thank you all for coming. We appreciate your time 
here. If I could just start, Mr. Matz, with just one question 
for you. You heard earlier Ms. McUsic noted that this bill 
provides considerable new protections for this land.
    In our discussions, and with others in the room who have 
had this continuing discussion about wilderness, we are looking 
at a long time--maybe 10 years is the number that has been 
bounced around--before we really--I think before many people in 
your association expect to solve the wilderness problem.
    Isn't some protection, as set forth in this bill--and as 
Ms. McUsic said--better than just letting things go as they are 
in the status quo?
    Mr. Matz. What I heard the earlier panel say was that what 
seemed to me was a great deal of support and acknowledgement on 
the part of Emery County and the Interior Department, that 
there are areas here that qualify as wilderness, that those 
areas should have protection. So it is kind of perplexing to us 
to see that wilderness designation isn't included in this 
legislation.
    Now, that is not to say that withdrawing the area from oil 
and gas development, or mineral development, aren't steps 
forward. It is just that it doesn't move in the direction of 
providing resolution for this area, for this particular area.
    Mr. Cannon. Thank you. I appreciate your input on that. You 
did raise--if I might, just one other question. You raised 
Secretary Babbitt's national landscape monuments, and said that 
you--and I expect you are speaking for your organization--
support those.
    If you would just--have you considered the legal 
implications of national landscape monuments in the context of 
the law itself, the Antiquities Act, which requires that the 
minimum amount of land reasonable be used, and that the law 
exists only to protect cultural and historical objects, which, 
of course, are defined? Have you considered the implications of 
the Secretary's proposal in the context of what the law 
actually says?
    Mr. Matz. It is my understanding that Secretary Babbitt is 
on solid legal footing. I mean, for instance, President 
Carter's Interior Secretary made a proclamation to establish 
130 million acres of national monuments in Alaska, and all of 
those--that one included, and all of those previous, have 
withstood legal challenges. So I believe that the Secretary is 
on very solid footing, using the 1906 Antiquities Act to set 
aside landscape national monuments.
    Mr. Cannon. Thank you.
    Mr. Curtis, appreciate your being here today. Would you 
talk a bit about who you view in Utah today as being supporters 
of this bill?
    Mr. Curtis. Who has been supporters?
    Mr. Cannon. Who are the groups of supporters out there of 
the bill?
    Mr. Curtis. Over the years--this is a process that wasn't 
completed overnight. It has been a long process. It has taken 
many years. And over that period of time, there have been a lot 
of interested parties and stakeholders involved in the 
discussions regarding this bill. And, for the most part, many 
of those are supportive of these things.
    Certainly, the State of Utah is supportive. We have a great 
deal of support locally from the public, from local leaders. 
And we, of course, extend an invitation to any who have 
concerns to work with Emery County in the planning process as 
they proceed to develop the actual management plan for this 
National Conservation Area.
    Mr. Cannon. Are you aware of any other proposals out there 
right now that have the potential to address land management in 
this area?
    Mr. Curtis. I am not aware of any real legitimate proposal 
that has any momentum or traction going for it at this point in 
time. I think the point that really needs to be made clear on 
this legislation is that the intent of this legislation is to 
conserve the resources of the San Rafael Swell, and to better 
manage the visitors and to control abuses that may be taking 
place right now.
    It is a good, solid, environmentally sound bill. I think 
the real threat would be to let the status quo continue as it 
is, to not create this NCA and provide the protections that 
this bill offers, but be a step backwards. This is a 
significant step forward.
    Mr. Cannon. Thank you. You know, I am deeply appreciative 
of all of the effort you have put into this bill, and thank you 
again for that.
    Mr. Nelson, aside from the fact that you have the neatest 
job on earth, would you tell us a little bit about how you 
anticipate working with BLM under this bill?
    Mr. Nelson. Mr. Chairman, Representative, we hold a series 
of responsibilities in the State of Utah--law enforcement 
activities as they relate to off-highway vehicles, education 
responsibilities, working with the local law enforcement 
agencies as well as the Federal agencies.
    In a number of cases around Utah, we have been successful, 
we feel, in educating the recreators, which is the first step 
that you need to take any time you are trying to effect a 
change or to keep certain activities from happening.
    The second is a presence. You have to have a presence to 
underscore the education, and to give support to those who are 
trying to do the right thing. The comments that were made 
earlier about the off-highway vehicle club members and the 
other associations is very accurate. Those aren't the people 
who are, in general, causing problems.
    It is others who either through their position of not being 
informed or of what we call the five percenters, those to whom 
rules don't mean a whole lot, and will take opportunities as 
they come in any recreational activity. You have to have this 
presence in order to make sure that the impacts of those 
individuals are lessened.
    And then the third is to make sure that individuals 
understand what it is you are trying to protect, the bigger 
picture, the values of the area that they are playing in, and 
there are many successful examples that we would think would be 
appropriate for the San Rafael.
    There needs to be an effort in this planning design, should 
this come to pass, to really talk to these potential users, no 
matter what their background or their interest about the 
history, the background of the Swell, why it is important that 
we have those individuals' support for the protection of the 
area, and, at the same time, explaining to them what the fun 
opportunities are, what there is to learn, where they can go to 
enjoy those natural resources.
    Mr. Cannon. Thanks. Do you expect changes in how you manage 
Goblin Valley State Park? And what do you expect those changes 
would be?
    Mr. Nelson. Mr. Chairman, Representative, we certainly 
would expect the continued growth in the visitation at Goblin, 
as well as at Huntington and Millsite. For those individuals 
who are not familiar, in the southeast corner of the Swell is a 
State park that has gone from 10,000 visitors to over 80,000 in 
the last year.
    We are the only permanent presence in that area. And 
everybody who has any kind of a problem, any kind of a need, 
whether it is information or a medical emergency or a law 
enforcement situation, they come to us first. And I would think 
that that is a toehold. That would be a great opportunity for 
us to work with the BLM and the county in these issues of 
control and management and education.
    There would certainly be an opportunity, should our 
partners want to take advantage of that presence, for us to 
expand our involvement.
    Mr. Cannon. Thank you. And I appreciate the time you have 
taken to come out here from what I know is a busy schedule with 
all the work you are doing in preparation for the Olympics and 
all of the other normal pressures of the incredible park system 
that we have in Utah. I appreciate your management.
    Mr. Nelson. Mr. Chairman, Representative, thank you.
    Mr. Cannon. And, Mr. Martin, I really appreciate your 
comments and insights. I love this area, and I love the stories 
of the area. What role do you think the Legacy District will 
play in determining what sites visitors come to see?
    Mr. Martin. Well, Representative, we often find that the 
visitors direct themselves. And if we don't have a plan to 
direct them to the sites that we have designated, they will 
continue to visit whatever site they choose. By having a 
planning effort, we will be able to direct the public to the 
sites that are most capable of taking the visitor and we will 
be able to interpret those sites.
    The dilemma without the plan is visitors go undirected, and 
that is one of the efforts that the Legacy District does is 
help us build that plan to direct them to the best sites that 
are best prepared to accept the visitor.
    Mr. Cannon. This is early in the process, and we haven't 
done much planning. But do you actually anticipate changes in 
what people will want to see and where they will go as 
information becomes--as you make information available, or 
identify information that you want to make available through 
the planning process, and then making it available?
    Mr. Martin. We have done that on the Four Corners area by 
what we call marketing and demarketing. We market the 
attractions that we feel we can accept the visitors to, that 
have the best opportunity for interpretation, that have the 
best ability to sustain the site as well as entice the visitor, 
and have a diverse experience. We demarket sites that are 
fragile, that are not capable of sustaining that kind of 
activity.
    We think we can be successful through a good planning 
effort of marketing and demarketing, to direct them to the 
sites that give them a wide breadth of experience, but also 
provide the opportunity for them to come in contact with the 
past, which is what they want to do. They want to touch the 
past, and that is what they want to do.
    Mr. Cannon. And this gives them the human past and a much 
longer past beyond that.
    Mr. Martin. Both.
    Mr. Cannon. Sort of puts our lives in perspective. Thank 
you very much for your testimony.
    Mr. Chairman, I yield back.
    Mr. Hansen. Thank you, Mr. Cannon.
    Let me point out to you that this hearing is basically H.R. 
3605, and I have been pretty liberal, let everything else come 
up, like national monuments. And let me point out in respect to 
everybody here, the case with President Carter settled. It 
wasn't resolved; it was settled, due to other legislation being 
passed.
    And the majority of people who have looked at this feel 
that the 1906 antiquity law is an unconstitutional law. There 
is a lot of legal thought on this. If there is any bill that I 
have ever--or any law I have ever seen passed, that I would 
like to see the Supreme Court rule on, it would be that one.
    We have since looked at it in detail, as you know, in this 
Committee. And I can't see, and none of the people we have had 
look at it can find one tool that it gives to BLM, Park 
Service, whoever, that they don't already have under the 
management plan. In the opinion of some folks on this 
Committee, it is more of a facade. I don't mean to get into 
that, but it has been raised here, so----
    Mr. Cannon. I would like to thank the Chairman for making 
those comments. Recognizing that the focus of this Committee, I 
didn't want to respond myself, but I want to associate myself 
with the comments you have made.
    Mr. Hansen. Well, I would hope that folks would realize 
also that this bill has 270,000 acres of de facto wilderness in 
it now. And also to realize that de facto wilderness is treated 
in a more pristine manner than wilderness per se. It is not as 
if it doesn't have something in it.
    Our friend from New Mexico, Mr. Udall?
    Mr. Udall. Thank you, Mr. Chairman.
    To maybe jump off on the point of the Chairman's comment 
about de facto wilderness, Mr. Matz, could you tell me, how 
would wilderness designation address the ORV use in the San 
Rafael Swell?
    Mr. Matz. Because of the definition of wilderness included 
in the 1964 Wilderness Act, motorized recreation is not allowed 
or permitted legally in designated wilderness. And so it would 
provide a very effective handle to be able to remedy a serious 
problem on the San Rafael Swell now the agency itself has been 
unable to deal with.
    They had a resource management plan in 1991 that proposed 
to close 9 percent of the entire resource area to ORVs in order 
to protect some sensitive habitats. And in order to do that, 
they needed to pull together a travel plan, which they began to 
do in 1992. By 1997, five years later, they had released a 
draft travel plan, but that plan was never made in final.
    So we are still now, 10 years later, dealing with not just 
the problem that resulted in a recognition in 1991 that it 
needed to be dealt with, but 10 years of very increasing use 
there that has caused even more significant problems, to the 
point where BLM now has, unfortunately, been required to 
develop a habitat management plan to try to protect some 
endangered species in the San Rafael Swell.
    Wilderness designation would give us a much better legal 
handle to stem the tide of ORV abuse in the San Rafael Swell.
    Mr. Udall. You say BLM was forced. Was that as a result of 
a lawsuit?
    Mr. Matz. I am not sure if it was a lawsuit, Congressman, 
or if it was just the requirements under the Endangered Species 
Act.
    Mr. Udall. Could you, Mr. Matz, give me your opinion on 
this boundaries issue? It seems to me that the boundaries here, 
if we are talking about protecting the San Rafael Swell, the 
San Rafael Swell--my understanding--doesn't end at the 
boundaries of the--is it--it is Emery County. They don't end 
right there, do they? What are your thoughts on that?
    Mr. Matz. It is disappointing to us to see that something 
called the San Rafael National Conservation Area does not, in 
fact, constitute all of the San Rafael Swell. There are 
important areas to the west, including Eagle Canyon, Molen 
Reef, and Mussentuchit Badlands, that are left out. To the 
south, on the southern end of the reef, there is Factory Butte, 
which is a very notable feature, and Upper Muddy Creek, that 
are omitted from this legislation.
    So from our perspective, it turns it into more of a county 
recreation park than it does a conservation area intended to 
maintain the integrity of the San Rafael Swell as a whole.
    Mr. Udall. Under this piece of legislation, under H.R. 
3605, there are created some advisory groups. I mean, what has 
your experience been working with advisory groups like this?
    Mr. Matz. Again, there is ample opportunity under the 
existing planning processes that BLM undertakes for local 
citizen involvement. And we have no disagreement that local 
involvement should be made a priority, but it should not be 
made--be prominent priority. And in establishing another 
Advisory Council of this type and makeup, it makes it--it 
defers too much to the local authorities and does not take into 
consideration--or actually abrogates the duty of BLM to take 
into consideration the national interest in what are America's 
public land.
    Mr. Udall. In trying to find some common ground here 
between proposals for wilderness and this proposal that is 
before the Committee, what would you need included in H.R. 3605 
in order to support it?
    Mr. Matz. It is simple, really. The two significant things 
that need to be remedied are, one, the boundaries for the NCA 
should be extended to include all of the areas of the San 
Rafael Swell. So that would include the areas to the west that 
spill over into Sevier County, and the areas to the south that 
spill over into Wayne County.
    And then, secondly, I think since there is such wide 
recognition, apparently, of the wilderness attributes in 
portions of the Swell, it is a mystery to us why there wouldn't 
be wilderness designation included in this legislation, and 
hopefully to take that issue off the table.
    Mr. Udall. To the other members of the panel, do you have 
any objection to expanding beyond Emery County, to include the 
other areas of the Swell?
    Mr. Curtis. If I may answer that, Mr. Chairman. We really 
have a misrepresentation here of what constitutes the San 
Rafael Swell. The boundaries of this National Conservation 
Area, in fact, are just about double in acreage the actual 
acres of the San Rafael Swell. The San Rafael Swell, that 
geologic feature is a small--it is a central piece of this 
National Conservation Area. But these boundaries go well beyond 
the San Rafael Swell as they stand right now.
    These other areas that are being referred to aren't even 
contiguous to the NCA boundaries as they exist right now. They 
are several miles to the west of these boundaries, and it just 
really doesn't make sense geographically or in any other way to 
include those lands. And, of course, this bill, this proposal, 
is not going to adversely affect the future of those lands in 
any case.
    Mr. Udall. Any comments from other panel members there? No?
    Thank you very much, Mr. Chairman.
    Mr. Hansen. I thank you, Mr. Udall. Appreciate your 
comments.
    You know, I really think this is a well-drafted piece of 
legislation. We look at a lot of legislation in this Committee, 
probably more than any other committee. And some of them are 
very poorly drafted. This is well put together. This has got--
takes care of a lot of things. I think, as I mentioned earlier, 
there is ample protection in this area--270,000 acres of WSA, 
which subsequently someone could act upon if they are so 
inclined to do.
    And I think that area--the 270,000 acres--does fit the 
criteria of the '64 Wilderness Act Mr. Matz talked about. That 
is a big issue. We talk about it all of the time. And I surely 
understand that.
    And it is kind of like beauty in a way; it is kind of in 
the eye of the beholder. Really, the '64 Wilderness Act 
probably should be refined a little bit because it is really 
tough to figure out a lot of things--roads, things such as 
that.
    Now, in my many years on this Committee, it has kind of 
switched. It used to be that the right of access was with the 
cattlemen, the timbermen, and the miners. It has kind of fallen 
to the wayside. The access question now is with the guy who 
rides a motorbike, an ATV, a back country pilot, a river 
runner, hunter. It has kind of switched that way.
    And people want access to public ground. I actually think 
the majority of Americans are pretty good conservationists. 
They really want to take care of it. A lot of you have alluded 
that there are always a few bad apples, and they should be 
treated that way. They should be brought up short for doing 
those areas.
    Now, I honestly feel of all the pieces of legislation that 
I have seen come before this Committee regarding Utah, this is 
one that really ought to make it. And we will do our best to 
see that it does. Does it need some refinement? Probably so. I 
think Molly brought up something. Sally brought up an area. And 
we will work on those things.
    I would like to ask this panel, if I could, what is a big 
concern--and, really, hung it up last time--was Sid's Mountain. 
And there you folks from Utah have put in, what, the desert 
bighorn sheep? It means an awful lot to some people.
    I have had more letters--this is the first time in my 20 
years on this Committee that I have had more letters from 
people on the other side, because the others are orchestrated. 
I mean, you know, one guy writes it and 10,000 of them come in. 
But these are really from the heart with people who are in this 
sheep bunch.
    And I don't know too much about it except they go out and 
they do what is called a Grand Slam. Courtland, you probably 
know more about this than I would. Or Wes would probably know. 
Where they shoot five sheep--one is in Mongolia, one is in 
Siberia, and one is in Sid's Mountain, and a few other areas--
these people are very, very concerned about this legislation 
and they feel very strongly about Sid's Mountain, where they 
have the desert bighorn sheep.
    And they have guzzlers in there, you know, where they 
evaporate, things to get water from, because there is not a 
natural flow of water in that area.
    Maybe Mr. Nelson, Mr. Curtis, you would want to comment on 
that. What are you doing on this desert bighorn sheep? Which is 
a big issue to a lot of folks all around America, not just 
Utah.
    Mr. Nelson. Mr. Chairman, I think there are several points 
to be made, as I understand them. First of all, the advocates 
for the bighorn sheep are not only the hunters, not only the 
consumptive people, but those individuals who would like to see 
the continued expansion of the range of bighorn sheep for other 
non-consumptive values.
    The Sid's Mountain area I think is unique in a couple of 
ways. Number one, there is an observation opportunity for 
people who are willing to make some effort where they can see 
bighorn sheep. And I think in some of the tourism plans that 
are in place or would be desired to be in place by Emery County 
folks that that is an important item.
    Secondly, the sheep activity in Utah has been expanded 
greatly over the last number of years. There are now many 
places where an individual can go and have a hunt, either have 
an opportunity to hunt or an opportunity to photograph various 
subspecies of the bighorn population.
    As you well know, we have recently introduced California 
bighorn sheep on Antelope Island. And that, Mr. Chairman, is a 
nursery herd. And when that herd reaches a certain size, then 
we will trap and relocate, possibly down to the San Rafael 
area, where yet more people can have an opportunity to see 
those species down there.
    There is a definite attraction for individuals who want to 
see what is colloquially called the Charismatic Mega Fauna by 
some groups. Those large species, the ungulates, that are 
attractive to watch, that give a sense of natural history, that 
go back even to Native American times. And I think the major 
effort here is to secure the strong biological presence of that 
sheep herd, as well as to provide various opportunities for 
people to harvest, to photograph, or otherwise just be aware 
that those sheep are out there in their native habitat.
    Mr. Hansen. But this bill and this whole thing we are 
working on does allow for citizens to see this bighorn sheep. 
Is that a correct statement?
    Mr. Nelson. Mr. Chairman, I think I will defer to Wes on 
that particular item, as it relates to the location of Sid's 
Mountain in viewing opportunity.
    Mr. Curtis. Mr. Chairman, yes. In answer to your question, 
it does allow--does not guarantee that they will see those 
bighorn sheep, obviously, but----
    Mr. Hansen. How did you possibly arrange it for these 
people from the BLM? How did you train the sheep to come in?
    Mr. Curtis. That is a local secret. We are not going to 
share that.
    [Laughter.]
    But, no, we take a great deal of pride locally in the 
bighorn sheep there. And, in fact, in the previous proposal two 
years ago, it was proposed to create a desert bighorn sheep 
natural area to really emphasize and promote this aspect of the 
Swell. That idea certainly hasn't gone away, and I think you 
will see over time that we will attempt to develop those types 
of activities that make it possible for the public to enjoy 
that great natural resource.
    Mr. Hansen. Well, that was the one issue that probably 
brought this thing down last time, if we worked a little harder 
on it, but we didn't work that hard on it. But we will work 
hard on this one.
    Mr. Matz. Mr. Chairman, may I address this?
    Mr. Hansen. Surely. Surely.
    Mr. Matz. I just wanted to quote here from one of these 
field reports. One of the biggest problems in the San Rafael 
Swell related to the bighorn sheep is the problem of ORVs.
    I just wanted to cite here that a Division of Wildlife 
Resources biologist told the BLM the herd numbers were stable 
but distribution was quite different from previous 
observations. They annually fly the herd units in a helicopter. 
This year, in some of the areas--they usually see sheep--
instead, they saw new OHV tracks. The sheep were found now in 
areas unaccessible to vehicles. This was in 1997.
    The areas of concern that haven't had OHV use in were Upper 
Red Canyon in Mexican Mountain WSA, Cactus Flatts, Mesquite 
Wash, Saddle Horse, and McCarty Canyons, in the Sid's Mountain 
WSA. So even with the WSAs there that you mention, we still 
have the problem of ORV use getting into these areas and 
disturbing the bighorn sheep population.
    Mr. Hansen. Comment? Mr. Cannon?
    Mr. Cannon. I just want to clarify, that would be illegal 
use of ORVs in areas where they are already prescribed, would 
it not?
    Mr. Matz. That is correct. They should not be in WSAs.
    Mr. Cannon. Okay. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Curtis, you had another comment?
    Mr. Curtis. Yes. If I could speak to that for just a 
minute. OHV misuse is certainly a concern that we all share, 
and we share that with the State of Utah, with the local 
citizenry, and with the BLM and Department of Interior. As 
everybody here knows, OHV use has accelerated dramatically over 
the past few years. It has accelerated faster than we have been 
able to get a handle on it, management-wise.
    And whether we designate an area wilderness or any other 
designation, it still doesn't guarantee that we have the 
manpower and the ability to enforce those designations. That is 
a concern that we have.
    Let me just, if I could, point out some of the things that 
are taking place locally with regard to this OHV issue. I think 
a rather significant, a real change in attitude that I have 
observed over the years--in Emery County, they are taking 
several different approaches trying to help the BLM and address 
this issue.
    In the first place, they are currently making an in-depth 
inventory of the routes and trails on the San Rafael Swell to 
determine which ones are important and which may be considered 
for elimination. Emery County is putting together an access 
management team, which will include representatives from 
resource management agencies, both State and Federal, as well 
as many different user groups and stakeholders.
    And the intent is to develop a consistent and 
understandable access plan. Along with this, to provide 
education, to provide signing, to in some cases build 
barricades if necessary to help protect these lands.
    The Emery County Sheriff's Office is applying for a grant 
and exploring the possibility of providing some trail rangers. 
This is on the part of the local county government to help 
police and monitor what is going on out there. The Recreation 
Subcommittee, the Public Lands Council in Emery County, has 
initiated an education program to help teach the youth the 
importance of not abusing their privileges in using their 
vehicles out there.
    And on National Public Lands Day this past summer--and, 
Representative Cannon, you attended this gathering--170 people 
representing many different organizations gathered out on the 
Copper Globe area of the San Rafael Swell. They marked 
legitimate trails. They erected barricades blocking 
illegitimate trails. They put up signs. They did many different 
things. They seeded, they raked, they did a lot of things to 
restore lands that had been abused.
    There really is a strong local movement to deal with this 
issue. And I think we ought to, rather than point fingers and 
say, ``Look, here is a problem,'' let us all work together and 
continue this effort to resolve the problem.
    Mr. Hansen. I thank you four members of the panel, thank 
Mr. Cannon, Mr. Udall, for being with us. I realize that most 
members are headed to the four corners of the earth right now 
somewhere and should be back next Wednesday.
    So with that said, thanks so very much to the panel, and 
all of you who are here today. And we appreciate the excellent 
testimony.
    This hearing is adjourned.
        [The information follows:]
        [GRAPHIC] [TIFF OMITTED] T4874.031
        
        [GRAPHIC] [TIFF OMITTED] T4874.032
        
        [GRAPHIC] [TIFF OMITTED] T4874.033
        
        [GRAPHIC] [TIFF OMITTED] T4874.034
        
        [GRAPHIC] [TIFF OMITTED] T4874.035
        
        [GRAPHIC] [TIFF OMITTED] T4874.036
        
        [GRAPHIC] [TIFF OMITTED] T4874.037
        
        [GRAPHIC] [TIFF OMITTED] T4874.038
        
    [Whereupon at 11:50 a.m., the Subcommittee was adjourned.]
   Statement of William H. Meadows, President, The Wilderness Society

    Mr. Chairman and Members of the Subcommittee, as President 
of The Wilderness Society, and I am pleased to offer testimony 
regarding a matter of great significance for our nation's 
natural resources and public lands: the protection of the 
magnificent red rock canyons and other public lands in Utah. We 
have convened to discuss these important lands on many prior 
occasions, in April 1 of 1998, for example, I testified 
regarding H.R. 3625, ``The San Rafael Swell National Heritage 
Conservation Act,'' introduced by Representative Chris Cannon 
in that same month.
    The Wilderness Society has a longstanding commitment to the 
protection of Utah wilderness and the wild and beautiful San 
Rafael Swell and its many natural values. This magnificent 
area--a great uplifted dome of sedimentary rock--rises 1,500 
feet above the surrounding desert. Jagged cliff faces, deep 
gorges, narrow slot canyons, and hidden valleys make the Swell 
one of the most popular primitive recreation areas in Utah. 
Citizen wilderness inventories conducted during the 1980's and 
recently updated (1998) have thoroughly cataloged, mapped, and 
identified the wilderness and related values of the San Rafael 
Swell.
    As a result of these extensive efforts, the Utah Wilderness 
Coalition, of which The Wilderness Society is a member, has 
Identified 17 wilderness quality areas in the San Rafael area--
magnificent and remote places with evocative names including 
Devils Canyon, Red Desert, Wild Horse Mesa, Lost Spring Wash, 
and Mexican Mountain. Taken together, these areas include 1.03 
million acres of wilderness quality lands located not only in 
Emery, but also in Sevier and Wayne counties.
    But before I proceed further, I would like to thank both 
Representative Cannon and the leaders of Emery County for their 
continuing efforts to address the protection of the San Rafael 
Swell. Although The Wilderness Society can not support H.R. 
3605 in its enjoyment of wilderness resources. Too often, ORV 
use and its resulting noise, pollution, erosion, and other 
impacts undercut opportunities for many longstanding public 
uses of these lands, including hiking, horsepacking, hunting, 
fishing and wildlife observation and therefore displace other 
public land users. ORV travel can degrade an area's naturalness 
and other wilderness values and create routes that 
antiwilderness interests seek to characterize as ``roads'' in 
order to disqualify the area for wilderness protection.
    The BLM and other Federal agencies have the authority to 
manage and control ORV use to protect Federal resources. 
Nevertheless, in too many cases--and particularly in Utah--the 
BLM has failed to use its management and planning authority to 
adequately manage ORV use and prevent resource degradation. The 
BLM has repeatedly failed to produce and implement adequate ORV 
management policies and resource damage to fragile natural 
resources has resulted. As a result of the BLM's ongoing 
failure to properly control ORV use and prevent resource damage 
on public lands in Utah, The Wilderness Society recently joined 
with the Southern Utah Wilderness Alliance (SUWA) in a lawsuit 
challenging the agency's ORV planning and management failures.
    In light of the BLM's poor record of performance in 
creating and implementing land and resource management plans 
that adequately manage ORV use, we believe that the ORV 
planning requirements contained in H.R. 3605 will not 
adequately address the threat of ORV resource damage to 
wilderness quality lands. In light of the severity of the 
resource damage caused by ORVs and the fragility and relative 
scarcity of wilderness quality lands remaining in Utah and 
across the West, The Wilderness Society supports the 
elimination of all ORV use on all Wilderness Study Areas and 
other wilderness quality lands managed by the BLM.

Conclusion

    The Wilderness Society and its members have been active 
participants in the effort to identify and protect Utah 
wilderness and the San Rafael Swell for at least 2 decades. TWS 
has actively fought numerous threats to these magnificent 
public land wilderness resources. Our understanding of these 
threats--mining, road construction, and off-road vehicular use, 
to name but a few--has led us to the strong conclusion that 
Utah's remaining public land wilderness resources deserve the 
highest level of protection Congress can afford--designation as 
part of the National Wilderness Preservation System. We urge 
this Committee and the Congress to amend H.R. 3605 to address 
the Issues outlined in this testimony to provide full 
protection for the 17 wilderness quality areas found within the 
Swell.
</pre></body></html>
